        UNITED STATES DEPARTMENT OF STATE
        AND THE BROADCASTING BOARD OF GOVERNORS
        OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT
TO THE CONGRESS
October 1, 2012 to March 31, 2013
     Summary of OIG Accomplishments

Financial Results
Questioned costs
  Issued during the reporting period                             $1,775,727
  Management decision during the reporting period                  $373,282
Recommendations for funds to be put to better use
  Issued during the reporting period                           $392,474,000
  Management decision during the reporting period              $392,833,793
Investigative monetary recoveries                                  $235,563


Investigative Results
Cases opened                                                             28
Cases closed                                                             32
Judicial actions                                                         10
Administrative actions                                                    3
Contractor/grantee suspension and debarment actions                      23
Hotline and complaint activity                                          635


Reports Issued:                                                          54




                   Requests for additional copies
            of this publication should be addressed to:
                      OIG-Reports@state.gov
               Department of State Publication 11462
                     Office of Inspector General



             Cover photo: Embassy Bandar Seri Begawan, Brunei
        Photo provided by the Bureau of Overseas Buildings Operations
                                TABLE OF CONTENTS

MESSAGE FROM THE DEPUTY INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . 1
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


DEPARTMENT OF STATE
 OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
 OFFICE OF INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
 OFFICE OF INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
 APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
 APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
 APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES. . . . . . . 41
 APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . . 45
 APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS . . . . . . . . . . . . . . . . . . 61
 APPENDIX 6: PEER REVIEWS OF OIG OPERATIONS . . . . . . . . . . . . . . . . . . . . . . 63


BROADCASTING BOARD OF GOVERNORS
  OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
  OFFICE OF INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . 75
  APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . 77
  APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS . . . . . . . . . . . . . . . . . 79


CONGRESSIONAL AND PUBLIC AFFAIRS ACTIVITIES . . . . . . . . . . . . . . . . . . . . . 81
ABBREVIATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013                               ii
Sherman Funk (1925-2013)
One of the most influential, well-known, and beloved
inspectors general in our history, Sherman Funk,
passed away in February.
Sherman Funk served as the first statutory inspector
general for the U.S. State Department from 1987 to
1994. He was appointed under President Reagan to
be the first independent Inspector General of the U.S.
Department of Commerce in 1981, and also served
under Presidents Bush and Clinton.
For all who had the pleasure of knowing and work-
ing with Sherman, his enthusiasm, energy, cour-
age, imagination, eloquence, and initiative were an
inspiration in enhancing the oversight role. He was
a mentor to many senior OIG officials throughout
the inspector general community. He was our mentor
and our dear friend.
Friends called him “brilliant, feisty, and fiercely
independent.” He was known, as well, for his kind-
ness and sense of humor.
Sherman Funk was born in 1925 in Brooklyn, NY
and grew up in Far Rockaway, NY. During World
War II, he was a combat infantryman with the 42nd
(Rainbow) Division, where his battalion received a
Presidential Unit Citation for holding off a panzer
division in Alsace. He was severely wounded in that
battle, taken as a prisoner of war, and lost the use of
his left arm.
Sherman went on to attend Harvard University
and did graduate work in American Government at
Columbia University and the University of Arizona.
He worked as a teacher and wrote a weekly, award-
winning column for a Maryland newspaper. He
began his government career in 1958 working for
the United States Air Force at the Pentagon.
MESSAGE FROM THE DEPUTY
INSPECTOR GENERAL

                             I am pleased to present to Congress the Office of Inspector
                             General (OIG) Semiannual Report for the Department
                             of State (Department) and the Broadcasting Board of
                             Governors (BBG). This report covers the period ending
                             March 31, 2013, as required by the Inspector General Act
                             of 1978, as amended.
                           These times are troubling for many, including those work-
                           ing in public service. With the sequestration in effect,
                           the review and evaluation of programs is essential to the
  Deputy Inspector General health and longevity of our work, and of our government.
     Harold W. Geisel      However, I am confident that strong programmatic over-
                           sight, paired with sustained congressional support, will help
us to navigate these challenges. We in OIG are doing our part to well position the
Department and BBG to maximize the efficiency and effectiveness of their opera-
tions. We do some of our best work by first asking, “How can we help?”
We help by identifying ways to run programs more efficiently, and to save money in an
era where all of government must learn to do its job with fewer resources. For example,
our strong recommendation that BBG coordinate with the Office of Management and
Budget and its congressional oversight committees to propose new legislation to appoint
a chief executive officer would directly resolve BBG’s gaps in programmatic structure
and enable it to focus on its strategic oversight and direction goals.
During this reporting period, our inspections yielded many findings that will
substantially improve Department employee training and security. The Foreign
Service Institute has enjoyed rapid growth in its programs due to increased demand,
but also has incurred costs for additional instruction to help students reach their
target language level. OIG recommended the Department reinstitute language
aptitude screening and consider employees’ prior success in language learning when
making assignments. OIG also reported additional opportunities for cost savings
by reevaluating language designations for specific positions. In our review of the
Department’s worldwide security measures, OIG recommended that the Bureau
of Overseas Buildings Operations provide compound emergency sanctuaries for
employees who work in buildings that do not have an approved safe area, or request
an increase in funding for compound emergency sanctuaries if current resources are
inadequate to do so.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   1
    Our audit of a Worldwide Protective Services (WPS) contract should save the
    Department approximately $362 million. OIG determined that the contractor
    exceeded actual staffing needs as a result of the Department’s failure to conduct
    a needs analysis before the task order was awarded. The contractor charged the
    Department for services that were not necessary, and these costs were not properly
    verified. To address these issues, OIG recommended that the Department conduct
    a needs-based analysis and further adjust WPS staffing as needed, while collect-
    ing unallowable or unsupported costs erroneously paid to the contractor. The
    Department immediately accepted our recommendation.
    In our investigative work, we have seen a steady increase in procurement fraud and
    public corruption investigations which has resulted in a subsequent rise in suspen-
    sions and debarments of Department contractors and grantees. Since 2008, when
    there were no suspensions or debarments issued by the Department, this number has
    risen steadily, resulting in 18 suspensions and 24 debarments in 2012. This integral
    part of the investigative mission highlights how our procurement oversight work can
    result in increased accountability for the Department as a whole.
    Our statute requires that we uphold the highest standards of efficiency and integrity.
    In these critical times, we pursue the most relevant concerns in the most volatile envi-
    ronments, and make valuable contributions by generating ideas to promote efficiency
    and objectivity. Lord Justice Denning’s profound observation—be you never so high,
    the law is above you—serves as reminder that we are honored to serve the law and our
    nation’s taxpayers.




                                                Harold W. Geisel
                                                Deputy Inspector General




2   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
EXECUTIVE SUMMARY

The auditors, inspectors, investigators, and other professionals in OIG promote effec-
tive management, accountability, and positive change in the Department, BBG, and
the foreign affairs community. During this reporting period, OIG issued 54 reports
with recommendations to improve Department and BBG programs and operations,
and identified more than $394 million in cost efficiencies, including funds to be
put to better use, questioned costs, fines, and recoveries. A full list of reports issued
during this period can be found in Appendix 2 of each agency section of this report.
This Semiannual Report to the Congress summarizes work carried out by OIG during
the period October 1, 2012, through March 31, 2013. OIG addresses classified issues
in the Classified Annex to the Semiannual Report to the Congress.


  OIG RECIPIENTS OF THE 2012 COUNCIL OF THE INSPECTORS
  GENERAL ON INTEGRITY AND EFFICIENCY (CIGIE) AWARDS
  FOR EXCELLENCE
  The 2012 CIGIE Awards, presented in October 2012 in Washington, DC, recog-
  nize outstanding achievements by OIG employees in the performance of their
  official duties. Recipients were selected from nominees across the entire inspector
  general community, and OIG employees from its audits, inspections, and investi-
  gative teams received the following awards:
    •	 Audit Award for Excellence: For outstanding achievements in improving
       the integrity, efficiency, and effectiveness of both Department of Defense
       and Department of State agencies responsible for the administration of the
       Afghan National Police Training Program.
    •	 Multiple Discipline Award for Excellence: In recognition of contribu-
       tions made to enhance the public’s confidence in the Department’s handling
       of the Presidential permit application for TransCanada’s Keystone XL oil
       pipeline.
    •	 Multiple Discipline Award for Excellence: In recognition of the inspec-
       tors and investigators whose exceptional work during the inspection of the
       Department’s Bureau of Educational and Cultural Affairs, resulted in much
       needed improvements in exchange programs.
    •	 Law and Legislation Award for Excellence: In recognition of the signifi-
       cant contributions made to assist Congress in strengthening legislation to
       combat human trafficking and abusive labor practices in U.S. Government
       contracts overseas.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   3
    AUDITS
    In its audit of the Worldwide Protective Services (WPS) contract, Task Order 5,
    OIG determined that the contractor movement security staffing requirements for
    Baghdad, Iraq, exceeded actual staffing needs. Specifically, only 49 percent of the
    contractor-provided movement security personnel were used, on average, to conduct
    daily movement missions. The overstaffing occurred because the Department did not
    conduct a needs analysis for staffing requirements before it awarded the task order
    and it unnecessarily exercised an optional program, which added more movement
    security personnel to the task order. Further, the Department did not adequately
    monitor the actual number of security personnel being used during performance.
    As a result, the Department paid, at a minimum, $20.6 million during the base
    year to retain contractor security personnel who were not needed for the optional
    program, an amount that the Department could have used to address other secu-
    rity needs. Based on OIG’s audit briefings, the Department initiated actions to
    reduce the number of contractor staff required, which should save the Department
    about $362 million over the lifecycle of the contract. OIG also determined that the
    contracting officer’s representative (COR) approved contractor invoices totaling about
    $1,775,727 that included unallowable, unsupported, or erroneous costs because the
    COR did not verify the contractor’s invoices against supporting documentation or
    verify that contract goods and services had been received. OIG recommended that
    the Department conduct a needs-based analysis and further adjust WPS staffing as
    needed. OIG also recommended that the Department collect any unallowable or
    unsupported costs erroneously paid to the contractor.
    Few corporations and Federal agencies have financial operations that are located
    in more than 170 countries. The Department, with $80 billion in assets and $50
    billion in annual resources, provides an administrative platform for 45 other U.S.
    Government entities overseas and pays personnel using hundreds of pay plans. The
    Department’s FY 2012 and FY 2011 financial statements audit resulted in an unqual-
    ified opinion on both years’ financial statements. OIG’s external auditor had previ-
    ously qualified its opinion on the Department’s FY 2011 financial statements because
    of significant issues related to the Department’s ability to manage and account for
    after-employment benefits (AEB) provided to local employees, such as unrecorded
    assets and liabilities related to defined benefit pension plans, lump-sum retirement
    payments, and separation benefits to local employees who had voluntarily resigned or
    had otherwise left the workplace. The Department also did not have an accurate list-
    ing of which posts provided AEBs or what these benefits entailed at each post. Even
    though these benefits created a long-term and sometimes significant financial burden
    on the Department, the Department did not have a centralized, formal process in
    place for authorizing AEB benefits to local employees. The Department also did not
    have processes to centrally oversee or monitor the pension plans. Instead, oversight of
    the plans was provided by post officials, many of whom did not have the specialized
    investment and pension knowledge essential to managing retirement funds. Because



4   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
the Department was unable to address these pervasive issues in FY 2011, the financial
statement opinion was negatively impacted. In FY 2012, OIG and its external audi-
tor worked extensively with Department officials to address many of the AEB-related
deficiencies identified during FY 2011. For example, because of external auditor
efforts, the Department performed reviews to confirm the nature of AEBs existing
at posts. The Department also requested and reviewed updated actuarial reports for
significant retirement plans. For FY 2012, the Department recognized a net liabil-
ity of $459 million in its financial statements related to AEBs for local employees.
Although the Department made improvements in controls over AEBs during FY
2012, some deficiencies, such as inaccurate personnel data for local employees were
not addressed, which could result in funding shortfalls, noncompliance with local
employment regulations, or the disbursement of improper benefit payments.
The Secretary of State is granted authority, by legislation, to lease or rent overseas
properties for “the use of the Foreign Service” and for “residential and office space”
to other agencies abroad whose employees are under the authority of the chief of
mission. The Bureau of Overseas Buildings Operations (OBO) acts as the single
real property manager for all nonmilitary U.S. Government property overseas. In
December 2012, OIG reported that OBO was utilizing short-term leases for over-
seas real property operating leases to fulfill the Department’s long-term require-
ments rather than securing leases with longer durations. Neither OBO nor posts
were inclined to secure leases longer than 10 years because of a Department-imposed
regulation prohibiting the sharing of operating lease costs with other Federal agen-
cies for leases that were for 10 years or longer. As a result, most of the Department’s
real property operating leases were for less than 10 years, and the Department may
be missing opportunities to secure more preferable lease durations and reduce the
vulnerability of losing leased properties, which could lead to higher lease costs. In
addition, because personnel at the posts OIG audited were not tracking and reporting
make-ready costs specific to each property, the Department could not verify that the
funds were used for legitimate make-ready costs, nor determine the full cost of leas-
ing overseas properties to make fully informed decisions about whether lease agree-
ments should be renewed or terminated. OIG made recommendations to enhance
real property leasing options and better control lease costs. In response to OIG’s
audit, an OBO senior official stated that OIG’s recommendations would change the
Department’s approach to real property leasing and save the Department money. In
anticipation of the policy changes and the subsequent advantages, OBO instructed
leasing agents to secure leases with durations longer than 10 years when appropriate.
For example, the Department recently secured a lease in Vienna, Austria, for more
than 10 years, which resulted in savings that would not have been realized if the
Department had been restricted to a term of less than 10 years.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   5
    INSPECTIONS
    OIG issued reports on inspections of three domestic bureaus/entities and six overseas
    missions, seven classified reports, three compliance followup reviews, and six special
    reviews. Recommendations in these reports could potentially result in savings or
    funds to be put to better use of approximately $30 million. OIG also documented
    several innovative practices as models for other embassies and bureaus to use to
    promote efficiency and effectiveness.
    OIG conducted special reviews of the Department’s ability to adequately secure
    overseas posts. OIG reviewed the Department’s implementation of a Jeddah
    Accountability Review Board recommendation to consider remote safe areas at
    missions worldwide and recommended that the Department request more funding to
    provide compound emergency sanctuaries for employees who work in buildings that
    do not have an approved safe haven or safe area. In its review of Overseas Security
    Policy Board exceptions and Secure Embassy Construction and Counterterrorism Act
    of 1999 waivers, OIG recommended that the Department track and confirm posts’
    adherence to exceptions and waivers to security standards for collocation and setback.
    OIG made a recommendation, during its inspection of Embassy Bangui, that the
    Department assess the risk of maintaining a presence in country. (Embassy Bangui
    subsequently suspended its operations.) OIG also made recommendations to improve
    operations in Embassy Abuja’s high-fraud and deteriorating security environment and
    at Embassy Manila as it managed a major construction project to address security
    and emergency preparedness.
    During the reporting period, OIG continued to focus on identifying cost savings in
    areas such as staffing, space, and lease costs. OIG determined that 80 percent of the
    Regional Information Management Centers’ deployed workforce should be relocated
    to the United States for an estimated savings of about $18 million a year. OIG also
    made recommendations to redesignate or eliminate language training at overseas
    posts, including in Buenos Aires and Phnom Penh. OIG recommended consolida-
    tion of housing to reduce operating costs, of about $1.5 million, and security vulner-
    abilities in Phnom Penh, and recommended, in its review of voucher processing,
    that the Department analyze the benefits of outsourcing voucher processing to the
    Department’s Post Support Unit rather than hiring more local staff overseas. In its
    compliance followup review of Embassy Berlin, OIG reissued a recommendation to
    sell government-owned space in Hamburg to significantly reduce maintenance, staff-
    ing, and security costs and recommended analyzing the cost benefits of relocating
    Consulate General Leipzig.
    OIG emphasized training requirements in several inspections. A review of over-
    sight and management of security programs and operations revealed that security
    was generally well managed. However, OIG recommended that the Department
    address problematic regional security officer performance by training deputy
    chiefs of mission and principal officers on the full range of regional security officer


6   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
programmatic responsibilities. OIG’s inspection of the Foreign Service Institute (FSI)
revealed that it was successfully managing a rapid increase in enrollment but needed
to reinstitute language aptitude screening to reduce costs—over $8 million in FY
2012—to help students reach target language proficiency levels. In addition, OIG
found that FSI had effectively linked Department and congressional requirements
and priorities to training but needed to expand those efforts to more functional areas.
In the review of the President’s Emergency Plan for AIDS Relief (PEPFAR) training,
OIG recommended that FSI include PEFPAR in senior leadership courses.



INVESTIGATIONS
During the reporting period, OIG investigative work included adjudicative results in
an investigation involving an attempted $500,000 bribe, and in another investiga-
tion of a $20,000 a month kickback scheme. Overall, our work resulted in more than
$235,563 in monetary fines and recoveries, including $180,101 in reimbursement
from a contractor whose employees were involved in a scheme to embezzle funds
from a Department contract. OIG investigations also resulted in a total of 23 suspen-
sion and debarment actions being taken against Department contractors and grantees
this period, to include 13 debarments just related to firms involved in a kickback
scheme in Afghanistan at Embassy Kabul. Additionally, the OIG Hotline processed
635 complaints from Department and BBG employees, contractors, grantees and
members of the general public. OIG also provided 14 fraud awareness presentations
to approximately 650 Department and BBG employees during this reporting period.



BROADCASTING BOARD OF GOVERNORS
During this reporting period, OIG issued four audit reports pertaining to BBG
operations: an audit report on BBG’s Information Security Program, a report and
management letter on BBG’s 2012 and 2011 financial statements, and a report on
FY 2012 compliance with improper payments requirements.
OIG also conducted three inspections and one compliance followup review of BBG
operations overseas as well as an inspection of the BBG Board itself. OIG found
the Board to be dysfunctional due to flawed legislative structure, internal dissent,
and chronic absences among its part-time members. OIG recommended that BBG
create a chief executive officer position in order for the Board to focus on issues of
strategic importance and its mandated legislative duties rather than on operational
management.
OIG determined that the BBG entities inspected were generally well run with no
major management or security problems despite operating in sometimes challeng-
ing environments. The Voice of America (VOA) Khmer Service and Radio Free Asia


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   7
    (RFA) news operations were threatened with legal sanctions for dealing with issues
    that criticize the government. These broadcasting entities were also exploring the
    possibility of sharing space to save lease costs. The BBG marketing representative
    in Abuja was securing new programming affiliations as the only way to commu-
    nicate with the population of an increasingly dangerous and violent country. The
    International Broadcasting Bureau was adequately managing administrative opera-
    tions while awaiting congressional authorization to close the Poro transmitting site to
    reprogram funds to Chinese and Tibetan target markets.




8   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
DEPARTMENT
     OF
   STATE
OFFICE OF AUDITS


CONTRACTS AND GRANTS

Audit of Department of State Oversight and Reporting of U.S. Government
Contributions to the Global Fund (AUD-CG-13-05)
The audit was conducted to determine the extent to which the Department fulfilled
its obligations to oversee and report on contributions to the Global Fund to Fight
AIDS, Tuberculosis, and Malaria (Global Fund) in accordance with the withhold-
ing and reporting requirements contained in the United States Code and in other
relevant laws and regulations.
OIG found that the Department had completed all required Global Fund-related reports
but had published oversight information reports for FYs 2009, 2010, and 2011 on aver-
age approximately 9 months after the required 120-day timeframe. The timeframes
were not met because officials from the Office of the U.S. Global AIDS Coordinator
(S/GAC) awaited certain financial information from the Global Fund, which is based
in Geneva, Switzerland, before they compiled and disseminated the oversight reports.
Also, the Department withheld the correct amounts for each of the five withhold-
ing requirements for FYs 2009–2011. The amounts withheld for each of these years
averaged approximately $48.4 million, or approximately 4.7 percent of the amounts
available each year for the U.S. Government’s contributions to the Global Fund.
OIG recommended that S/GAC establish deadlines and interim benchmarks to
govern its reporting processes and incorporate these deadlines and benchmarks into
its standard operating procedures.



FINANCIAL MANAGEMENT

Independent Accountant’s Report on the Application of Agreed-Upon Procedures:
Employee Benefits, Withholdings, Contributions, and Supplemental Semiannual
Headcount Reporting Submitted to the Office of Personnel Management (AUD-FM-13-01)
Under OIG’s direction, an independent external auditor performed agreed-upon proce-
dures as required by an Office of Management and Budget Bulletin criterion. These
procedures were performed to assist the Office of Personnel Management (OPM) in
assessing the reasonableness of retirement, health benefits, and life insurance withholdings


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   11
     and contributions, as well as enrollment information submitted via the Semiannual
     Headcount Report to OPM by the Department. The procedures were also performed to
     assist OPM in identifying and correcting errors relating to processing and distributing
     Combined Federal Campaign (CFC) payroll deductions. In general, the auditor identified
     no reportable differences as a result of applying the majority of the procedures. However,
     the auditor reported some differences as a result of applying procedures relating to life
     insurance elections, contributions, and withholdings; the Semiannual Headcount Report;
     and the official duty stations of employees with CFC deductions.

     Independent Auditor’s Report on the U.S. Department of State 2012 and 2011
     Special-Purpose Financial Statements (AUD-FM-13-07)
     In its audit of the Department’s special-purpose financial statements as of and for the
     years ended September 30, 2012 and 2011, an independent external auditor quali-
     fied its opinion on the reclassified balance sheets and related reclassified statements of
     changes in net position based on a scope limitation related to after-employment benefits
     provided to locally employed overseas staff. The Department addressed these issues and
     restated its 2011 special-purpose financial statements. Accordingly, the auditor’s opinion
     on the 2011 reclassified balance sheet and related reclassified statement of changes in
     net position was different from that expressed in its previous report.
     In its audit of the Department’s FY 2012 and FY 2011 special-purpose financial state-
     ments, the auditor found that the reclassified balance sheets, reclassified statements
     of net cost and changes in net position, and accompanying notes present fairly, in all
     material respects, the financial position of the Department as of September 30, 2012
     and 2011 and its net cost of operations and changes in net position for the years then
     ended, in conformity with accounting principles generally accepted in the United States
     of America and the presentation pursuant to Department of the Treasury requirements.
     The auditor identified no material weaknesses in internal control over the finan-
     cial reporting process for the special-purpose financial statements, and its tests of
     compliance with Department of the Treasury requirements disclosed no instances of
     noncompliance that were required to be reported.

     Independent Auditor’s Report on the U.S. Department of State 2012 and 2011
     Financial Statements (AUD-FM-13-08)
     In its audit report of the Department’s financial statements as of and for the years
     ended, September 30, 2012 and 2011, an independent external auditor qualified
     its opinion on the 2011 consolidated balance sheet and consolidated statement of
     changes in net position based on a scope limitation related to after-employment
     benefits provided to locally employed overseas staff. The Department addressed these
     issues and restated its 2011 financial statements. Accordingly, the auditor’s opinion
     on the 2011 consolidated balance sheet and consolidated statement of changes in net
     position was different from that expressed in its previous report.


12   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
In its audit of the Department’s FY 2012 and FY 2011 financial statements, the
auditor found that the consolidated balance sheets and the related consolidated
statements of net cost and changes in net position and combined statements of
budgetary resources present fairly, in all material respects, the financial position of
the Department as of September 30, 2012 and 2011, and its net cost of operations,
changes in net position, and budgetary resources for the years then ended, in confor-
mity with accounting principles generally accepted in the United States of America.
The auditor found certain reportable deficiencies in internal control: a material weak-
ness relating to financial reporting and significant deficiencies in the internal control
over Foreign Service National after-employment benefits, property and equipment,
budgetary accounting, unliquidated obligations, and information technology. The
auditor also found instances of noncompliance with certain provisions of laws and
regulations, including instances in which the Department’s financial management
systems did not substantially comply with the requirements of the Federal Financial
Management Improvement Act.

Management Letter Related to the Audit of the U.S. Department of State 2012
and 2011 Financial Statements (AUD-FM-13-09)
During the audit of the Department’s 2012 financial statements, an independent external
auditor identified matters involving internal controls that it brought to the Department’s
attention related to documentation, funds with the Department of the Treasury, accounts
payable, accounts receivable, revenue, financial transactions with the U.S. Agency for
International Development, and reporting deferred maintenance. The external auditor
recommended that the Department take appropriate action to address these weaknesses.

Independent Auditor’s Report on the International Boundary and Water
Commission, United States and Mexico, U.S. Section, 2012 Financial
Statements (AUD-FM-13-10)
In its audit of the International Boundary and Water Commission, United States and
Mexico, U.S. Section (USIBWC), financial statements as of, and for the year ended,
September 30, 2012, an independent external auditor found that the consolidated balance
sheet and the related consolidated statements of net cost and changes in net position and
combined statement of budgetary resources present fairly, in all material respects, the
financial position of USIBWC as of September 30, 2012, and its net cost of operations,
changes in net position, and budgetary resources for the year then ended, in conformity
with accounting principles generally accepted in the United States of America.
The auditor found certain significant deficiencies in internal control over property
and equipment, budgetary accounting, and information technology.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   13
     Management Letter Related to the Audit of the International Boundary and
     Water Commission, United States and Mexico, U.S. Section, 2012 Financial
     Statements (AUD-FM-13-11)
     During the audit of USIBWC’s 2012 and 2011 financial statements, the independent
     external auditor identified internal control weaknesses or instances of noncompliance
     with selected provisions of applicable laws and regulations relating to the analysis and
     review of financial data, the presentation of the Statement of Net Cost, and vendor
     payments. The external auditor recommended that USIBWC take appropriate action
     to address these weaknesses.

     Audit of Nonproliferation and Disarmament Fund Controls Over Contracting
     and Project Management and Integrity of Financial Data (AUD-FM-13-17)
     The Bureau of International Security and Nonproliferation, Nonproliferation and
     Disarmament Fund (ISN/NDF), requested that an independent external audi-
     tor, acting on behalf of OIG, perform an audit to assess ISN/NDF’s controls over
     contracting and project management and determine whether the data recorded in
     NDF’s internal financial and project management system was sufficient to prepare
     auditable financial reports for external users.
     The independent external auditor found that ISN/NDF’s controls over the contract-
     ing process were sufficient to meet many objectives but needed improvement to
     ensure compliance with all Federal and Department requirements. Specifically,
     controls over contract initiation and modification, invoice approval, and contract
     closeout were well designed but were not consistently executed, and ISN/NDF did
     not have sufficient controls over unliquidated obligations, a control to close out
     contracts in a timely manner, or a process to document the projects for which NDF’s
     authority to waive Federal requirements is used.
     Also, ISN/NDF had successfully executed projects around the world to achieve
     nonproliferation goals, and the project managers effectively managed the statuses of
     their projects. However, the project managers had not managed projects consistently
     and had not always used the project management functionality of NDF’s financial
     and project management system.
     Further, the financial and project management system contained accurate and
     complete information on funds received from appropriations and donations as well
     as the amounts approved for each project. However, obligations and expenses in
     the system were not always accurate, complete, or entered in a timely manner, and
     the system lacked key reporting functionality. Because of the data inaccuracies and
     reporting limitations, the auditor concluded that the system would not have had the
     capability to produce auditable financial reports.
     Additionally, although ISN/NDF had some controls to protect the data in the system,
     it had not implemented certain application level controls; for example, ISN/NDF did


14   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
not have a comprehensive application security plan and had not formally approved or
implemented its draft contingency plan.
OIG recommended that ISN/NDF take actions to improve its controls over contract-
ing and project management and improve the reliability of the data in its financial
and project management system.

Independent Review of the U.S. Department of State Accounting of FY 2012
Drug Control Funds and Related Performance Report (AUD-FM-13-21)
OIG independently reviewed the assertions made in the Department’s accounting of
FY 2012 drug control funds and related performance report, which was submitted to
the Director of the Office of National Drug Control Policy (ONDCP) in compliance
with ONDCP guidance. Nothing came to OIG’s attention that caused it to believe
that the management assertions included in the report were not fairly stated, in all
material respects, based upon the guidance.

Audit of Department of State FY 2012 Compliance With Improper Payments
Requirements (AUD-FM-13-23)
In compliance with the Improper Payments Information Act of 2002, as amended
by the Improper Payments Elimination and Recovery Act of 2010, an independent
certified public accounting firm acting on OIG’s behalf conducted an audit of the
Department’s FY 2012 compliance with improper payments requirements.
The public accounting firm determined that the Department had performed program-
specific risk assessments for programs that experienced significant changes and also
had developed risk assessment policies and procedures and expanded and refined its
risk assessment methodology to include the qualitative risk factors included in appli-
cable guidelines. Although the Department made improvements in its risk assessment
methodology during FY 2012, the methods it used to identify significant changes and
perform qualitative assessments needed additional improvement. Further, although the
Department had not performed a baseline risk assessment of all programs, a Department
official indicated that the risk assessments would be performed during FY 2013. However,
before the Department performs those baseline risk assessments, it should improve its
definition of a “program” as well as its process for identifying programs.
The public accounting firm also found that the Department had implemented a
program of internal control to prevent, detect, and recapture improper payments
and identified improper payments of $11.1 million during FY 2012. However, the
Department excluded a significant amount of payments from its recapture audits, and
the audits were focused on payments rather than programs. Although the Department
was analyzing ways to perform recapture audits over excluded payment types, it had
not completed that analysis at the time of this audit. In addition, the Department had
included most of the required improper payments disclosures in its FY 2012 Agency
Financial Report; however, some disclosures were omitted or were inaccurate.

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   15
     OIG recommended that the Department improve its risk assessment process, expand
     recapture audits, and disclose all required improper payments information.



     HUMAN CAPITAL AND INFRASTRUCTURE

     Audit of U.S. Department of State Use of Short-Term Leases Overseas
     (AUD-HCI-13-02)
     As of September 30, 2011, about 97 percent of the Department’s real property
     operating leases were leased on a short-term basis, with annual rental costs for these
     leases in FY 2011 totaling about $459 million. OIG conducted the audit to deter-
     mine whether the Bureau of Overseas Buildings Operations (OBO) was using short-
     term leases for Department long-term needs rather than securing leases with longer
     durations.
     OIG found that OBO and the four posts audited rarely utilized real property operat-
     ing leases with durations longer than 10 years because neither OBO nor the posts
     had an incentive to secure longer lease durations. There was no incentive because a
     Department-imposed regulation prohibited the sharing of operating lease costs with
     other Federal agencies when the lease duration was 10 years or longer. As a result, the
     duration of most of the Department’s real property operating leases was less than 10
     years, and the Department may be missing opportunities to secure more preferable
     lease durations and reduce the vulnerability of losing leased properties that could lead
     to higher lease costs.
     Also, personnel at the posts audited were not tracking and reporting make-ready
     costs specific to each property in the audit sample. Without adequate accounting of
     these property costs, the Department could not determine the full cost of leasing
     overseas properties to make fully informed decisions about whether lease agreements
     should be renewed.
     OIG made recommendations intended to enhance real property leasing options and
     better control lease costs.

     Audit of Office of Medical Services Contracting Practices for Continuing
     Medical Education (AUD-HCI-13-19)
     OIG found that the Office of Medical Services (MED) had a valid requirement
     to sponsor Continuing Medical Education (CME) conferences from 2007 to 2011
     to fulfill training requirements for medical personnel. These conferences provided
     overseas staff required training in a cost-effective manner that could not be derived
     by other means. Also, the contracting practices for conveying CME curricula were
     completed in accordance with applicable regulations.


16   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
However, OIG could not determine whether the process for selecting CME confer-
ence locations was completed in accordance with regulations because MED did not
have procedures to document its site selection process. Also, OIG could not deter-
mine whether contracts for logistical support for the venues for conferences held
prior to the 2011 conferences, except for the 2009 conference held in Hawaii, were
awarded in accordance with applicable regulations. This occurred because, before
2011, contracts for logistical support for the venues were awarded at posts that had
hosted the conferences or at a regional procurement center, and MED did not main-
tain contract documentation for those contract awards in a central location.
OIG recommended that MED implement procedures that require documentation
and retention of site selection for CME conferences, as specified in regulations. Since
December 2010, the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management, has awarded the contracts for logistical support
for the venues for the CME conferences, and these contracts were sufficiently docu-
mented and complied with applicable regulations. Therefore, OIG did not make a
recommendation on this issue.

Outline for Action: Physical Security Concerns at Embassy Addis Ababa,
Ethiopia (AUD-HCI-13-26)
As part of an overall audit of the Department’s compliance with physical security
standards and measures at selected posts within the Bureau of African Affairs, OIG
conducted a physical security survey at Embassy Addis Ababa to determine the
embassy’s compliance with current standards. OIG identified physical security areas
that required the embassy’s immediate attention and made recommendations for the
embassy to enhance its security posture.



INFORMATION TECHNOLOGY

Audit of Department of State Information Security Program (AUD-IT-13-03)
In response to the Federal Information Security Management Act of 2002 (FISMA),
OIG had an independent public accountant review the Department’s Information
Security Program to evaluate the Department’s progress in addressing FISMA infor-
mation management and information security program requirements. The inde-
pendent public accountant found that the Department, since the FY 2011 review,
had taken actions to improve management controls, but the accountant identified
control weaknesses that significantly impacted the Information Security Program.
Collectively, the control weaknesses identified represented a significant deficiency, as
defined in Office of Management and Budget guidance.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   17
     Overall, the Department had continued its efforts to further develop its Information
     Security Program. However, for the Department to improve and bring the program
     into compliance with applicable requirements, the independent public accountant made
     recommendations for the Department to address control weaknesses in the risk manage-
     ment program, security configuration management, security awareness and role-based
     training, plans of action and milestones, vulnerability and compliance scanning, account
     and identity management program, user provisioning process, continuous monitoring,
     remote access policies and procedures, the continuity of operations plan, information
     security contingency planning, oversight of contractor systems, and capital planning.

     Audit of International Boundary and Water Commission, United States and
     Mexico, U.S. Section, Information Security Program (AUD-IT-13-15)
     In response to FISMA, OIG conducted an audit of the United States Section,
     International Boundary and Water Commission, Information Security Program to
     evaluate USIBWC’s progress in addressing FISMA information management and
     information security program requirements.
     Overall, USIBWC had continued its efforts to further develop its information security
     program. However, for USIBWC to improve and bring the program into compliance
     with applicable requirements, OIG made recommendations for USIBWC to address
     control weaknesses in the system inventory, risk management program, configuration
     management, security training, plan of action and milestones, remote access, continu-
     ous monitoring, contingency planning, oversight of contractor system, security capital
     planning, personnel security, and physical and environmental protection.



     MIDDLE EAST REGION OPERATIONS

     Compliance Followup Review of Department of State Internal Controls Over
     the J. William Fulbright Scholarship Fund in Pakistan (AUD-MERO-13-18)
     In its May 22, 2009, report Limited-Scope Review of Management and Internal Controls
     Over the J. William Fulbright Scholarship Fund in Pakistan (MERO-I-09-07), OIG
     reported on the adequacy of management and internal controls over the funds provided
     to the United States Educational Foundation in Pakistan (USEFP) to administer the
     Fulbright program. The report made 11 recommendations to the Bureau of Educational
     and Cultural Affairs (ECA) for improving management and internal controls in coor-
     dination with USEFP and Embassy Islamabad. The objective of this compliance review
     was to verify the Department’s actions to implement the 11 recommendations.
     OIG determined that 10 recommendations were closed because USEFP had
     improved financial reporting, had integrated grants management with its accounting
     system, and had hired a controller.


18   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
The remaining recommendation was not closed because ECA had not ensured that
USEFP had instituted an adequate internal control system, as required by the J.
William Fulbright Foreign Scholarship Board and the USEFP Finance and Accounting
Manual. Therefore, OIG reissued Recommendation 1 to ECA, requesting that it
develop a process to ensure that USEFP institutes adequate internal controls over its
accounting system.

Evaluation of Emergency Action Plans for U.S. Mission Afghanistan
(AUD-MERO-13-20)
OIG conducted an evaluation to determine whether U.S. Mission Afghanistan had
comprehensive, up-to-date, and adequately tested Emergency Action Plans (EAP).
OIG determined that the five annexes of the plan selected for evaluation were
approved by the Bureau of Diplomatic Security (DS) in May 2011 and that Embassy
Kabul had made personnel aware of the EAP and had held the required EAP drills.
However, Embassy Kabul, Consulate Herat, and the Provincial Reconstruction Team
in Qala-e-Naw lacked certain resources, services, and capacities to respond to some
emergencies.
OIG recommended that Embassy Kabul and Consulate Herat ensure that their
EAPs were updated and that their resources, services, and capacities were sufficient
to respond to emergencies. OIG also recommended that DS validate the adequacy of
EAPs at high-threat posts, such as Embassy Kabul.

Audit of Bureau of Diplomatic Security Worldwide Protective Services
Contracts – Task Order 5 for Baghdad Movement Security (AUD-MERO-13-25)
The Department awarded the Worldwide Protective Services (WPS) contract, Task
Order 5, to provide movement security in Baghdad, Iraq. OIG determined that the
contractor movement security staffing requirements exceeded the actual staffing
needs. Specifically, only 49 percent of the contractor-provided movement security
personnel were used, on average, to conduct daily movement missions. The overstaff-
ing occurred because the Department did not conduct a needs analysis for staff-
ing requirements before it awarded the task order and it unnecessarily exercised an
optional program, which added more movement security personnel to the task order.
Further, the Department did not adequately monitor the actual number of security
personnel being used during performance. As a result, the Department paid, at a
minimum, $20.6 million during the base year to retain contractor security personnel
for the optional program who were not needed. The Department could have used
the $20.6 million to address other security needs. Based on OIG’s audit briefings, the
Department initiated actions to reduce the number of staff required, which could save
the Department about $362 million over the lifecycle of the contract. OIG also deter-
mined that the contracting officer’s representative (COR) approved contractor invoices
totaling about $1,775,727 that included unallowable, unsupported, or erroneous costs


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   19
     because the COR did not adequately verify the contractor’s invoices against support-
     ing documentation or verify that contract goods and services had been received. OIG
     recommended that the Department conduct a needs-based analysis and further adjust
     WPS staffing as needed. OIG also recommended that the Department collect any
     unallowable or unsupported costs erroneously paid to the contractor.



     SECURITY AND INTELLIGENCE

     Outline for Action: Physical Security Concerns at Consulate General Istanbul
     (AUD-SI-13-06), Outline for Action: Physical Security Concerns at Embassy
     Dar es Salaam (AUD-SI-13-14), and Outline for Action: Physical Security
     Concerns at Embassy Kampala (AUD-SI-13-16)
     As part of an overall audit of the Department’s compliance with physical security
     standards and measures at overseas posts, OIG conducted a physical security survey
     at Consulate General Istanbul, Embassy Kampala, and Embassy Dar es Salaam to
     determine the entities’ compliance with current standards. OIG identified physical
     security areas that required the entities’ immediate attention and made recommenda-
     tions for all of the entities to enhance their respective security posture.

     Evaluation of Department of State Implementation of Executive Order 13526,
     Classified National Security Information (AUD-SI-13-22)
     OIG conducted an evaluation of the Department’s implementation of Executive
     Order 13526, Classified National Security Information, in response to the require-
     ments of the Reducing Over-Classification Act, dated October 2010.
     OIG found that the Department generally adopted the classification policies,
     procedures, rules, and regulations prescribed by the executive order but that the
     Department did not effectively follow and administer proper classification policies
     and procedures. Also, tools that assist Department employees on proper classification
     for emails and telegrams required updating. Further, the Department’s self-inspection
     report did not fully follow requirements, and the Department significantly over-
     stated, by as many as 2.4 million decisions, the classification decisions reported in its
     annual submission to the Information Security Oversight Office.
     OIG made recommendations for the Department to comply with the requirements
     of the executive order, including revising applicable regulations to enforce training
     requirements, updating tools that facilitate compliance with classification standards,
     implementing a methodology to select a representative sample of classified documents
     for the annual self-inspection, and establishing a process to validate required submis-
     sions of data by Department bureaus.



20   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
OFFICE OF INSPECTIONS


DOMESTIC INSPECTIONS

Inspection of the Bureau of Diplomatic Security, Office of Investigations
and Counterintelligence, Divisions of Special Investigations, Criminal
Investigations, and Computer Investigations and Forensics (ISP-I-13-18)
Personnel in the three inspected Bureau of Diplomatic Security, Office of
Investigations and Counterintelligence divisions were professional and dedicated to
their jobs. However, the Special Investigations Division lacked an essential investiga-
tive standard—independence from undue influence by Department and Diplomatic
Security authorities in investigations of criminal and administrative misconduct.
DS lacked adequate quality assurance measures and guidance on conducting inves-
tigations. Frequent agent turnover had reduced long-term, specialized expertise and
hampered complex criminal investigations.
OIG recommended that the Department restructure the Special Investigations
Division’s investigative responsibilities and staffing and analyze the feasibility of
physically relocating the division. OIG also recommended that DS use peer reviews
to help correct flaws and identify best practices.

Inspection of the Foreign Service Institute (ISP-I-13-22)
The rapid growth of Foreign Service Institute (FSI) staff, students, courses, and facilities
reflected the Department’s commitment to professional training. Enrollment more than
quadrupled over the past decade, in part because of distance learning. FSI management
successfully managed this rapid growth. In the School of Language Studies (SLS) only
60 percent of students were reaching target proficiency levels on time. The cost of addi-
tional instruction in FY 2012 to help students reach their target exceeded $8 million. The
Department needed to reinstitute language aptitude screening and assign employees who
lack demonstrated prior success in language learning or tested language aptitude to hard
or super hard language training only if there are no other qualified bidders. SLS needed
to make organizational and programmatic changes to strengthen pedagogy, coordination,
and strategic planning. Outside review of a portion of language tests and other steps were
required to address the inherent conflict of interest of having SLS instructors serve as testers.
The School of Professional and Area Studies responded effectively to Department
and congressional requirements for new courses. Consular, public diplomacy, and
economic training were linked to policymakers’ priorities, but other functional areas
were not. The Leadership and Management School’s courses received high praise, but


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   21
     the school faced leadership deficiencies and demand for courses outstripped capac-
     ity. The School of Applied Information Technology successfully delivered technical
     training but needed to determine the cost effectiveness of using commercial vendors
     for industry-standard courses.
     Deficiencies in FSI’s project management, contracting, and budgeting practices
     resulted in inadequate tracking of major application development costs and timelines.
     Although FSI and other Department entities will require new resources to carry out
     all OIG’s recommendations, some of the expense should be offset by the resulting
     medium- and long-term savings to the Department.



     OVERSEAS MISSIONS

     Bureau of African Affairs

     Inspection of Embassy Bangui, Central African Republic (ISP-I-13-13A)
     Embassy reporting was excellent and appreciated by Washington consumers; however, the
     Department’s inability to adequately staff Embassy Bangui had prevented it from func-
     tioning as an effective mission. The embassy lacked sufficient permanent staff to properly
     support and manage its management, security, and information systems security functions.
     OIG recommended that if the Department could not adequately staff and protect the
     embassy, it needed to consider whether the risks to personnel in Bangui were justified
     or develop an alternate strategy to maintain diplomatic representation in the Central
     African Republic, such as regional accreditation and support from nearby embassies.
     Note: Embassy Bangui temporarily suspended operations on December 28, 2013, as
     a result of the security situation in the Central African Republic.

     Inspection of Embassy Abuja, Nigeria (ISP-I-13-16A)
     The Ambassador and deputy chief of mission (DCM) were effectively managing
     mission responsibilities and the staff’s welfare in Nigeria’s deteriorating and increas-
     ingly violent security environment. The regional security office led a well-coordinated
     program. The mission suffered significant staffing gaps due to the lack of a recruitment
     strategy. A heavy visitor load and travel constraints had reduced reporting quantity and
     quality. Improving physical plant in both Abuja and Lagos were front office priorities,
     and construction of a new office annex was proceeding close to schedule. Consular
     officers were operating in a challenging environment with pervasive fraud, critical crime
     and terror threats, unreliable civil institutions, and burgeoning workloads.
     OIG recommended that Mission Nigeria address its staffing gaps, increase analytical
     reporting, and enhance management controls in Nigeria’s high-fraud environment.


22   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
Bureau of East Asian and Pacific Affairs

Inspection of Embassy Phnom Penh, Cambodia (ISP-I-13-08A)
The Ambassador strongly supported economic policy reforms, strengthening bilateral
economic ties, promoting U.S. exports, and improving interagency coordination and
oversight for all U.S. assistance to Cambodia. The embassy had begun work toward
strengthening its commercial advocacy and economic reporting activities. Embassy
Phnom Penh successfully managed an unusually high volume of senior visitors asso-
ciated with Cambodia’s 2012 chair of the Association of Southeast Asian Nations
(ASEAN).
OIG identified opportunities for cost savings in overtime, language-designated posi-
tions, and the residential security program, which accounted for more than 70 percent
of the mission’s FY 2013 security budget of $3.9 million. OIG recommended consoli-
dation of single-family houses into apartments and cluster housing, which could
reduce operating costs by $1.5 million annually as well as costs for security personnel.
OIG also recommended introducing controls to reduce overtime costs of more than
$400,000 and elimination of language training that costs approximately $200,000.

Inspection of Embassy Manila, the Philippines (ISP-I-13-10A)
The Ambassador’s “One Mission, One Team” approach had contributed to excel-
lent interagency collaboration. In keeping with the U.S. Government’s emphasis
on strengthening engagement in Asia, the mission’s foreign assistance programs
have been recalibrated appropriately to increase Philippine defense capabilities and
development. Commercial, agriculture, and economic offices worked effectively but
needed to develop a strategy to meet National Export Initiative goals.
The mission could reduce costs by $1.2 million annually by eliminating two positions
and reducing costs in other areas. The embassy also faced other management challenges,
including the completion of construction projects totaling more than $300 million and a
comprehensive examination of the 23-acre Seafront compound to make better use of this
property. In addition, Global Publishing Solutions Manila was financially unstable, with
losses of $3.9 million from FYs 2007 to 2012 and a declining U.S. Government customer
base. Although the consular section provided excellent service to American citizens and
visa applicants, OIG found shortcomings in consular management controls, fraud preven-
tion measures, and adherence to the worldwide referral policy.
OIG recommended that the Bureau of Administration prepare a plan to restructure
operations at Global Publishing Solutions Manila to eliminate working capital fund
operating losses. The embassy also needed to improve office facilities at the U.S.
consular agency in Cebu and to provide better support and oversight to the agency, a
key regional resource.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   23
                      INNOVATIVE PRACTICE: Consular Battle of the Brains

                      Issue: With one of the largest consular operations in the world, Embassy
                      Manila needs well-trained staff. The large size of each consular unit promotes
                      independent functioning, affording staff members little opportunity to work
                      closely with others outside their operational unit. Officers, locally employed
                      (LE) staff, and eligible family members tend to circulate in separate subgroups.
                      Equal Employment Opportunity, ethics, cyber security, and consular-specific
                      training tend to be categorized separately, and required training is conducted
                      independently for the most part.
                      Response: An organizing committee made up of officers and LE staff
                      members from several consular units developed a Jeopardy-like game called
                      “Consular Battle of the Brains.” Unit chiefs allocated time on the training day
                      for the competition. Seven teams, each composed of personnel working in all
                      consular units and from all employment categories, from the consul general to
                      the contract greeters, competed. The organizing committee developed a series
                      of questions emphasizing different areas of training and expertise, including
                      Equal Employment Opportunity, No Fear Act, personally identifiable informa-
                      tion, the Privacy Act, consular leadership tenets, Philippine culture, facts about
                      the mission, and consular online training.
                      Result: The dynamics of the Battle of the Brains promoted team building
                      across all consular units and staff. Large groups of individuals formed into
                      tight interactive circles, putting their heads together and laughing as they
                      collaborated on answers to questions. This format broke down barriers between
                      people, and the teams enthusiastically enjoyed competing against one another.
                      The variety and changing format of the questions and answers made the review
                      of material, conveyed primarily through online training, both fun and relevant.




                      INNOVATIVE PRACTICE: Broad Range Communication

                      Issue: Embassy Manila employees work in a variety of locations, which makes
                      it difficult for them to participate in embassywide forums.
                      Response: The information management office deployed a videoconferencing
                      application, Vbrick, which allows the office to broadcast four channels to every
                      computer on the unclassified system. Vbrick also supports filming and live
                      broadcasts, including those from the Secretary of State and Ambassador, and
                      customizes content to a large display in the lobby.
                      Result: Broadcasts reach audiences in many locations around the embassy.
                      The system has allowed the embassy to terminate a significant number of cable
                      television subscriptions, resulting in cost savings.




24   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
Bureau of European and Eurasian Affairs

Compliance Followup Review of Embassy Luxembourg, Luxembourg
(ISP-C-13-05)
The new Ambassador was effectively advancing U.S. Government goals and objec-
tives for Embassy Luxembourg. The staff was working closely with the Government
of Luxembourg on issues such as combating illicit financial transactions and seek-
ing Luxembourg’s support for key U.S. policy positions in the North Atlantic Treaty
Organization (NATO), particularly Luxembourg’s military presence in Afghanistan.
Rightsizing efforts were underway to relocate all staff members to the chancery, esti-
mated to save $500,000 annually in lease costs.
Embassy Luxembourg had complied with all but one formal and one informal
recommendation from the 2011 inspection. OIG reissued a recommendation to
provide grants training to local employees and recommended that the embassy
execute outstanding grants agreements. OIG reissued a recommendation requiring
the embassy to properly dispose of improperly purchased wine and liquor, and issued
a new recommendation for the embassy to collect funds that were inappropriately
reimbursed from representational funds.

Compliance Followup Review of Embassy Berlin, Germany (ISP-C-13-19)
Coordination and communication between Embassy Berlin and the consulates
general had greatly improved. Recommendations in 2011 to downsize and reduce
staff at Consulates General Dusseldorf, Hamburg, and Leipzig had been imple-
mented. OIG determined that Consulate General Leipzig should remain open but
a cost-benefit study of relocating the consulate general to smaller space was needed.
The Bureau of Overseas Buildings Operations and Embassy Berlin had not sold the
Hamburg office facility or identified replacement commercial office space, and the
recommendation was reissued. Consulate General Frankfurt provided information
technology support missionwide and was chosen as a pilot hub for the Classified
Network Regionalization project, which could support 150 missions at full imple-
mentation. Staff at Consulate General Frankfurt had been reduced due to a pilot
passport program whereby U.S. military acceptance agents handle about 50 percent
of all passport applications in Germany. An agreement between the Departments
of Defense and State on duties and responsibilities of military passport acceptance
agents worldwide was put in place in September 2012.
OIG recommended that the Department make the pilot passport program perma-
nent in Germany and at other missions with substantial U.S. military assets.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   25
                      INNOVATIVE PRACTICE: Domestic Issuance of Military
                      Fee Passports Accepted Abroad

                      Issue: Consulate General Frankfurt has managed a successful pilot pass-
                      port acceptance program since 2009, whereby accredited U.S. military
                      acceptance agents accept passport applications from military personnel on
                      bases in Germany and send them directly to the National Passport Center
                      in the United States for processing and return to the bases for distribution.
                      The consulate general is no longer an intermediary in the process unless
                      there is a complication with the application or an emergency. Consulate
                      staff provides training and guidance, as necessary, to the agents. The
                      consular section in Consulate General Frankfurt has reduced both LE and
                      officer staff as a result of this pilot program. The program’s success and
                      demonstrated savings in personnel costs indicate it could be applicable to
                      other posts with substantial U.S. military assets. The recent conclusion of
                      a formal agreement between the Departments of Defense and State about
                      the roles and responsibilities of acceptance agents should facilitate the
                      program’s expansion to other countries.
                      Response: The program has demonstrated its success. Approximately 50
                      percent of passport applications are now forwarded by acceptance agents in
                      Germany directly to the National Passport Center for processing. By one esti-
                      mate, since the beginning of the program, approximately 30,000 applications
                      have been handled successfully in this way.
                      Result: By expanding the program to other countries where there are large
                      U.S. military facilities, the reduction in the overseas passport workload could
                      result in substantial savings for the Department in personnel and processing
                      costs abroad.




26   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
                 INNOVATIVE PRACTICE: Establishing Consular Systems
                 Connectivity at Evacuation Points

                 Issue: Consulate General Frankfurt set up a link at Frankfurt’s airport to provide
                 consular officers access to consular databases to assist evacuees from crisis posts.
                 This process was first used for the 2012 evacuation of Tunis. Evacuees often
                 arrive without documents, funds, or identification. Before the establishment of
                 this data link, special permission was needed from German authorities to allow
                 the evacuee to enter Germany to visit Consulate General Frankfurt and apply for
                 replacement passports and financial aid. This process was time consuming and
                 required a German escort and a parole for each evacuee.
                 Response: The information program officer and consular employees teamed
                 up to establish an Internet link at the airport where the consular officers and
                 staff can access Department consular systems to confirm an evacuee’s identity,
                 process new documents, and provide other assistance as needed. It includes
                 Wi-Fi so that evacuees can communicate directly with family and others via
                 the Internet. This link is located at the terminal gate where evacuation aircraft
                 usually arrive. Other temporary assistance such as supplies and beds are also
                 made available at that site. When the link is not in service at the airport, it is
                 stored at the consulate general to ensure the integrity of the equipment. The
                 estimated cost of setting up the link was $6,000.
                 Result: This link allows evacuees one-stop shopping for services they need
                 to move on to their final evacuation destination. The German authorities are
                 pleased because they do not need to tie up resources escorting the evacuees
                 to the U.S. consulate general. Consular staff can provide quicker and more
                 customer friendly service at the airport.




Bureau of Western Hemisphere Affairs

Inspection of Embassy Santiago, Chile (ISP-I-13-12A)
Embassy Santiago had effectively managed the bilateral relationship with Chile on
regional and global issues. The United States had held regular, high-level consulta-
tions with Chile on defense and political cooperation. The embassy’s Integrated
Country Strategy was solid, but use of travel and representational funds, reporting,
and the public diplomacy plan needed to be keyed to the mission’s strategic priorities.
Embassy staff increases in recent years had begun to strain available office space.
OIG recommended that the embassy establish a semiannual review to determine
its progress in meeting the objectives of the Integrated Country Strategy. OIG also
recommended that OBO conduct a space survey to better use available space and
accommodate future growth.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013       27
                      INNOVATIVE PRACTICE: Trafficking in Persons
                      Working Group

                      Issue: To enhance Chile’s efforts to combat trafficking in persons, the
                      economic/political section organized a trafficking in persons working group
                      comprised of 20 entities representing the Chilean Government, the United
                      Nations, nongovernmental organizations, and foreign embassies. The group
                      creates partnerships between relevant departments of the Chilean Government,
                      nongovernmental organizations, and other embassies. Together they plan strat-
                      egies, share information, and coordinate funding to help implement Chile’s
                      new antitrafficking legislation.
                      Response: The working group meets regularly to discuss ways to support
                      Chile’s antitrafficking efforts. A seven-organization steering committee was
                      created to institutionalize the group and tie it to organizations rather than indi-
                      viduals, with a view toward creating long-term sustainability. Upon hearing of
                      the group, the Chilean Minister of Women’s Affairs asked to attend a meeting.
                      Other relevant sections of the government, including those tasked with border
                      control, migration, and child protection, are now involved. During the inspec-
                      tion another European Union member country joined the group.
                      Result: The working group enhances antitrafficking awareness among journal-
                      ists and the general public. The Ministries for Women’s Affairs and the Interior
                      are using the group’s ideas to craft a strategic plan on trafficking. Information
                      exchanges maximize the knowledge base for the Department’s Trafficking
                      in Persons report and for other countries and organizations that share our
                      concerns about human trafficking.




                      INNOVATIVE PRACTICE: New Technology Use for
                      Property Inspections

                      Issue: In the past, facility management employees expended several hours per
                      day driving back and forth to employee residences to inspect, evaluate, and
                      schedule repairs.
                      Response: The unit uses a software application, to which it made some modifi-
                      cations, to report on residential and maintenance inspections, make-readies,
                      and departure assessments. The report includes the condition of the properties
                      and photos, which can be immediately sent to the E-Services coordinator to
                      schedule a maintenance crew.
                      Result: The software application saves 3 to 4 work hours per service call and
                      reduces transportation costs, resulting in estimated cost savings of $65,000
                      per year.




28   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
Inspection of Embassy Buenos Aires, Argentina (ISP-I-13-15A)
Embassy Buenos Aires had reduced its staff by 14 positions in the last 2 years and
still ranked among the top 10 visa processing posts worldwide. Persistent high
inflation rates in Argentina had corroded the embassy budget and eroded locally
employed staff earnings. Argentine import restrictions made it difficult for the
embassy to procure goods and import employee vehicles and household effects. The
chancery building contained crowded work areas that presented health hazards and
other areas that were less crowded.
OIG recommended that the Office of Foreign Missions remedy reciprocity inequities
between the Argentine and U.S. embassies concerning import and export procedures.
OIG also recommended that OBO conduct an office space survey and prioritize
funding for the embassy’s heating, ventilation, and air conditioning. OIG identified
two positions in the information programs center to be redesignated as language
preferred, saving the Department approximately $210,000.


                 INNOVATIVE PRACTICE: Trafficking in Persons
                 Awareness Training for Teamsters

                 Issue: To combat trafficking in persons through expanded civic cooperation
                 with Argentine law enforcement and victim assistance organizations.
                 Response: The political section labor officer and an LE staff member used contacts
                 to foster partnerships between two antitrafficking nongovernmental organizations
                 and the Argentine Federation of Trucking Companies. Knowing that the federa-
                 tion conducts mandatory annual training required for teamsters to retain their
                 licenses, the embassy and nongovernmental organizations jointly asked the federa-
                 tion to add an antitrafficking component to the training. The embassy contributed
                 to training content at no direct cost to the U.S. Government. Volunteers from the
                 two nongovernmental organizations created a YouTube video entitled Roads of
                 Trafficking, posters, and wallet cards detailing how to recognize trafficked victims
                 and how to call for help. The posters and wallet cards carry the logos of the U.S.
                 embassy, the Federation of Trucking Companies, and the two nongovernmental
                 organizations. With approval from the Argentine Government, the Federation of
                 Trucking Companies antitrafficking training reaches 20,000 teamsters a month in
                 over 200 classrooms all over Argentina.
                 Result: Together with nongovernmental organizations and the Federation, the
                 Ambassador launched the program in September 2012. The event attracted
                 wide press coverage and attendance by over 150 representatives from national
                 and foreign governments, union representatives, legislators, and nongov-
                 ernmental organizations. Following the launch, a representative of the taxi
                 industry contacted the embassy to express interest in a similar program for taxi
                 drivers. The Argentine video, posted on the embassy Facebook site, was viewed
                 nearly 9,000 times in just 5 days.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013       29
                      INNOVATIVE PRACTICE: Automated Mail Logging System

                      Issue: The Embassy Buenos Aires local guard force receives and screens, on a
                      daily basis, a large volume of mail at the main pedestrian access control area.
                      The embassy received 93 packages, for example, on November 1, 2012, from
                      various carriers including DHL, Federal Express, and the local Argentine
                      postal service. The majority of these deliveries were destined for the consular
                      section via the Diplomatic Post Office located in the chancery. Manual logging
                      of each piece of mail by security guards is both time-consuming and prone to
                      human error.
                      Response: Concerned about the amount of time security guards spend with
                      this administrative duty, the regional security office, working in tandem with
                      a local staff member in the information management section, produced a
                      simple and replicable computer application. The system allows local guards to
                      electronically scan nearly all incoming mail with a $200 commercially avail-
                      able barcode reader—a model compatible with the reader used by the embassy
                      Diplomatic Post Office. Embassy mail handlers sign for each day’s mail on
                      reports produced through the new computer application.
                      Result: This innovative practice saves time, enhances security, and improves
                      the integrity and timeliness of mail processing.




     INTERNATIONAL ORGANIZATIONS, PROGRAM
     REVIEWS, AND SPECIAL REPORTS

     Review of Voucher Processing (ISP-I-13-01)
     OIG conducted a survey of voucher processing to assess the Department’s use of
     the Bureau of the Comptroller and Global Financial Services (CGFS)/Post Support
     Unit (PSU), determine the potential for expanded use of CGFS/PSU throughout the
     Department, and identify related issues and best practices. This survey was part of a
     broader, ongoing OIG review of regionalization and rightsizing in the Department.
     OIG found that use of CGFS/PSU in the Department was largely voluntary
     and varied among the regional bureaus. Analysis of International Cooperative
     Administrative Support Services data and post inspection field work revealed that it
     is more economical to outsource vouchering than to hire or replace local staff.
     Accordingly, OIG has made formal recommendations to outsource a portion of
     post voucher workload to CGFS/PSU. Despite this finding, the Department had
     no immediate plans to centralize transactional vouchering processing to take
     advantage of the probable cost containment and savings, economies of scale,


30   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
knowledge gained as a result of repetitive processing, and improved internal
controls. CGFS believed that all posts should consider outsourcing to CGFS/PSU
as part of their workforce planning and should conduct a cost-benefit analysis of
CGFS/PSU use as attrition occurs or as vouchering workload increases. Some of
the regional bureaus had already instituted this requirement. OIG recommended
that the Department make such a cost-benefit analysis a required part of annual
workforce planning for posts.

Oversight and Management of Security Programs and Operations (ISP-I-13-02)
Over the past 2 years, OIG inspections revealed that security programs were gener-
ally well managed; however, a few inspection reports highlighted problematic
regional security officer (RSO) performance. The reasons behind substandard RSO
performance varied. In some cases RSOs were poorly prepared for their positions, but
the reports showed that not all DCMs and principal officers understood the respon-
sibilities of RSOs. In addition, lack of familiarity with security programs hampered
the ability of DCMs or principal officers to effectively lead and supervise RSOs and
to evaluate their performance. OIG recommended that FSI, in coordination with
the Bureau of Diplomatic Security, provide a comprehensive block of instruction to
address these issues.

Review of Consular Leadership (ISP-I-13-03)
OIG inspections of 34 posts, from May 2010 through June 2011, found that consular
leadership was generally good; however, the DCM or principal officer reviews of
nonimmigrant visa adjudications by the consular chief were uneven and conducted
in a pro forma manner. OIG informally recommended that the Bureau of Consular
Affairs conduct an evaluation of the adjudication review process and a review of
Department guidelines to address this issue.

Review of President’s Emergency Plan for AIDS Relief (PEPFAR) Training
(ISP-I-13-04)
FSI had successfully developed courses on how U.S. embassies can support
PEPFAR and integrate it with other assistance programs in support of overall
foreign policy goals. It dealt with PEPFAR in a number of different courses rather
than a single one, a strategy that helped it focus on specific needs and issues such
as policy coordination or administrative support. FSI did not, however, adequately
include the subject in its courses for ambassadors and DCMs, creating a risk of
insufficient oversight of this important program. OIG recommended that the
Office of the Global AIDS Coordinator and FSI develop a handbook and conduct
briefings to address this issue.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   31
     Review of Overseas Security Policy Board Exceptions and Secure Embassy
     Construction and Counterterrorism Act of 1999 Waivers (ISP-I-13-06)
     DS did not adequately track exceptions granted to the Overseas Security Policy
     Board’s (OSPB) physical security standards or Secure Embassy Construction and
     Counterterrorism Act of 1999 (SECCA) waivers of colocation and setback. OIG
     recommended that DS track and confirm posts’ adherence to exceptions and waivers
     and update annually its exception and waiver files.

     Inspection of Regional Information Management Centers (ISP-I-13-14)
     The Regional Information Management Centers (RIMC) deployed approximately
     100 people overseas. However, a majority of the work that staff members performed
     was not time sensitive and did not require their presence overseas. RIMC management
     controls required strengthening. The RIMCs did not have a comprehensive quality
     management program for their most frequent activity of rendering assistance to posts.
     They also lacked a standardized system to manage and account for equipment valued
     at approximately $3.3 million. In addition, RIMC personnel assigned to repair radio,
     telephone, and digital equipment overseas did not receive sufficient training.
     OIG determined that moving 80 percent of the RIMC positions back to the United
     States would reduce the exposure of American personnel to security risks overseas
     and would save as much as $18.3 million a year in recurring administrative support
     costs. Leaving 20 percent of the RIMC workforce deployed overseas would be suffi-
     cient to provide timely support for repairs or crises. OIG also made recommendations
     to address management controls.

     Review of Department of State Implementation of Jeddah Accountability
     Review Board Recommendation to Consider Remote Safe Areas at Missions
     Worldwide (ISP-I-13-23)
     OIG reviewed the Department of State’s worldwide compliance with the 2005
     Jeddah Accountability Review Board recommendation to consider remote safe areas
     at compounds where employees outside office buildings can seek immediate refuge
     during an armed attack. The Department concurred with the recommendation,
     stating that over the short term, posts with critical and high terrorism threat levels
     would be the first priority for safe area construction projects. However, in recent
     inspections, OIG found that more than half of the posts did not provide a safe area
     for employees working outside the main office buildings. In addition, funding for
     compound security upgrades had declined over the past 5 years.
     OIG recommended that OBO provide compound emergency sanctuaries for employ-
     ees who work in buildings that do not have an approved safe haven or safe area and
     request an increase in funding for compound emergency sanctuaries.



32   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
OFFICE OF INVESTIGATIONS


BRIBERY
OIG conducted an investigation into allegations that the president and CEO of a
company that provides security services offered a $500,000 bribe to a Department
contract specialist in order to receive a guard forces contract at a U.S. embassy
overseas. In addition to the attempted bribe, the investigation determined that the
company submitted materially false statements as part of its contract proposal. On
January 29, 2013, the Office of the Procurement Executive (OPE) issued a letter to
the company CEO notifying him of a proposed 3 year debarment from all govern-
ment contracting. (C2012-003)



THEFT AND EMBEZZLEMENT
OIG conducted an investigation based on self-disclosure by a Department contractor
performing work for the Department in Afghanistan stating that some of its employ-
ees were engaged in a scheme to embezzle contract funds. On January 13, 2013, as
part of its cooperation with the investigation, the company agreed to reimburse the
Department $180,101.11 in stolen funds. (C2009-119)
OIG conducted an investigation which determined that two third-country national
employees working for a Department contractor in Afghanistan stole three govern-
ment-owned armored vehicles valued at approximately $120,000 and sold them to
a local national. Upon learning of the thefts, the contract company repurchased the
three vehicles and had them returned to the Department and also terminated the
two employees. The investigation determined that because of the company’s actions
in recovering the stolen property, there was no monetary loss to the government. On
January 14, 2013, OPE debarred both former contract employees from any future
participation in U.S. government contracting. (C2012-027)



FALSE CLAIMS
OIG conducted an investigation based on information that a Department employee
committed fraud by submitting false time and attendance records and fraudulent claims
for overtime pay. The investigation determined that as a result of the fraud the employee
was paid $7,245.68 in wage compensation to which she was not entitled. The case was


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   33
     referred to Superior Court for the District of Columbia, and on January 29, 2013, the
     employee was arrested for theft. On March 12, 2013, the employee was convicted and
     sentenced to 180 days’ confinement (which was suspended), 3 years’ probation, ordered to
     pay full restitution in the amount of $7,245.68, and to pay a $50 fine. (C2012-031)
     OIG conducted an investigation of a Foreign Service officer who submitted two
     travel vouchers in connection with Medevac travel that he knew contained false
     information. As a result of the false claims, the officer received $14,630.83 in travel
     expense reimbursements to which he was not entitled. On March 28, 2012, the
     Bureau of Resource Management initiated collection action against the officer. On
     December 10, 2012, the Bureau of Human Resources proposed a 20-day suspension
     of the officer for making the false claims. (C2011-07)



     GRANT FRAUD
     OIG conducted an investigation based on allegations received from a Department
     grantee that a subgrantee made fraudulent charges against the grant. The investigation
     determined that the subgrantee had submitted a total of $4,140 in false invoices against
     the grant. On October 12, 2012, OPE issued debarment notices to both the subgrantee
     firm and its executive director. (C2010-047)



     EMPLOYEE MISCONDUCT
     OIG conducted an investigation into numerous allegations of misconduct by a DCM
     serving at an overseas embassy. The investigation determined that the DCM repeat-
     edly used his government resources for non-official purposes. The investigation also
     determined that the DCM improperly accepted gifts without the required approval.
     He then used his official position for the benefit of those who provided him gifts.
     On February 13, 2013, the Bureau of Human Resources (HR) issued a proposal to
     terminate the DCM’s employment with the Department. (C2011-097)
     OIG conducted an investigation of a passport specialist who used her official position
     to access personal information of personal acquaintances from official Department
     passport databases. She then used the information to send threatening and harassing
     letters to personal acquaintances using envelopes designated for official Department
     correspondence. On February 27, 2013, HR notified the employee that her initial
     proposed removal had been mitigated to a 45-day suspension without pay. (C2011-054)
     OIG conducted an investigation involving misuse of grant funds by a foreign grantee
     overseas. The investigation determined that the grantee received 67 grants totaling
     approximately $1,000,000 over a three year period, and that the Foreign Service officer
     responsible for award and oversight of the grants failed to follow OPE grant policy


34   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
requiring the grantee to document and report the expenditure of the grant funds.
Consequently, much of the grant money was unaccounted for. On November 20, 2012,
the Bureau of Human Resources issued a proposed 10-day suspension to the officer for
her failure to follow OPE policy. (C2010-030)
OIG conducted an investigation of a Department employee who was overpaid for
workers’ compensation leave (WCL) after a work-related injury. The employee claimed
continuation of regular pay for the injury and used WCL leave from 2008 through 2011
despite only being entitled to WCL leave for 45 days. The investigation determined the
employee received $45,067.16 of WCL benefits to which the employee was not entitled.
On November 20, 2012, the Department’s Comptroller’s Office notified OIG that a full
monetary recovery would be initiated against the employee. Additionally, on January 2,
2013, HR notified OIG that a proposed three day suspension was issued to the employee
for failure to follow established procedures resulting in an overpayment. (C2012-066)



FOLLOWUP ACTIONS

Embezzlement
OIG conducted an investigation of a Department employee who approved two
voucher payments to a fictitious company. When interviewed by OIG agents, the
subject confessed to embezzling nearly $59,000. The subject was immediately placed
on suspension and on April 16, 2012, paid a reimbursement to the Department
totaling $58,681.92. On August 6, 2012, the subject pleaded guilty in U.S. District
Court to a Criminal Information charging him with Theft of Government Property.
On January 4, 2013, the employee was sentenced to 12 months’ home detention, 36
months’ probation, and a $3000 fine. (See OIG Semiannual Report to the Congress,
April 1, 2012 to September 30, 2012, p 44) (C2012-048)

Contract Fraud
OIG conducted an investigation based on a referral from the Federal Bureau of
Investigation alleging that a Locally Employed Staff member working at Embassy
Kabul as a procurement supervisor solicited a kickback. The investigation uncov-
ered a large number of irregularities in the procurement process related to the
procurement supervisor. On November 17, 2011, the Department’s Office of the
Procurement Executive issued contractor suspensions to 17 firms that had suspicions
interactions with the procurement supervisor. During this most recent reporting
semi-annual reporting period, OPE additionally issued 13 debarments in connection
with the case. Those debarred included six contract firms, five contract company
owners or employees, one Department employee and one relative of a Department
employee. (See OIG Semiannual Report to the Congress, October 1, 2011, to March 31,
2012, p 28) (C2011-023)

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   35
     OIG conducted a joint investigation with the Special Inspector General for Iraq
     Reconstruction (SIGIR) of a United States Institute of Peace (USIP) official for
     conspiring to enrich himself by having USIP award a security contract at a fraudu-
     lently inflated price in exchange for a purported monthly consulting fee of $20,000
     paid by the contractor. On August 7, 2012, the Department of Justice announced that
     the subject had entered into a plea agreement after admitting to his fraudulent activities.
     After the subject entered into the plea agreement, an indictment against the contractor
     was unsealed in U.S. District Court, which included eight counts of bribery, conspiracy
     and wire fraud. On March 14, 2013, OPE suspended both the contractor and his
     company from being involved in government contracting. (See OIG Semiannual Report
     to the Congress, April 1, 2012 to September 30, 2012, p 43) (C2009-101)



     DATA AND INVESTIGATIVE ACTIVITIES

     Hotlines
                               Total Complaints Received                 635
                               Referral To Other Offices for Action      507
                               Held for Action Within OIG                 48
                               No Action Necessary                        80


     Types of Cases
                                      Embezzlement
                                        & Theft
                        Passport &        5%
                        Visa Fraud
                            6%
                 All
                Other                                       Contract &
                 7%                                     Procurement Fraud
                                                               35%
                     Conflict of Interest
                            11%

                                 False Statements       Employee
                                     & Claims           Misconduct
                                        18%                18%




     Note: May not equal 100% due to rounding.


36   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 1: INVESTIGATIVE
ACTIVITIES

          Preliminary Inquiries
            Opened                                                                  25
            Closed                                                                  21
          Investigations
            Opened                                                                  27
            Closed                                                                  32
            Pending (3/31/13)                                                      133
          Criminal Actions
            Referrals for Prosecution                                               10
            Indictments/Informations                                                 2
            Convictions                                                              1
            Sentencings (Months Imprisonment)                                        6
            Sentencings (Months Probation)                                          72
            Declinations                                                            12
          Civil Actions
            Civil Referrals                                                         12
            Civil Judgments                                                          0
            Civil Declinations                                                       1
          Administrative Referrals
            Referrals for Personnel Action                                           3
            Suitability Referrals to DS                                              0
            Contractor Suspensions/Debarment Referrals to OPE                        7
          Administrative Actions
            Removals                                                                 1
            Suspensions                                                              5
            Reprimand/Admonishments/Warning Memorandum                               6
            Contractors/Grantees Suspended                                           3
            Contractors/Grantees Debarred                                           20
            Contractors/Grantees High Risk                                           0
          Monetary Recoveries
            Criminal Fines/Recoveries                                      $10,395.68
            Civil Recoveries                                                       $0
            Administrative Recoveries                                     $225,168.27
           Total Investigative Recoveries                                $235,563.95




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   37
38   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 2: REPORTS ISSUED

 Report Number          Report Title

 AUD-CG-13-05           Audit of Department of State Oversight and Reporting of U.S. Government
                        Contributions to the Global Fund
 AUD-FM-13-01           Independent Accountant’s Report on the Application of Agreed-Upon Procedures:
                        Employee Benefits, Withholdings, Contributions, and Supplemental Semiannual
                        Headcount Reporting Submitted to the Office of Personnel Management
 AUD-FM-13-07           Independent Auditor’s Report on the U.S. Department of State 2012 and 2011
                        Special-Purpose Financial Statements
 AUD-FM-13-08           Independent Auditor’s Report on the U.S. Department of State 2012 and 2011
                        Financial Statements
 AUD-FM-13-09           Management Letter Related to the Audit of the U.S. Department of State 2012 and
                        2011 Financial Statements
 AUD-FM-13-10           Independent Auditor’s Report on the International Boundary and Water Commission,
                        United States and Mexico, U.S. Section, 2012 Financial Statements
 AUD-FM-13-11           Management Letter Related to the Audit of the International Boundary and Water
                        Commission, United States and Mexico, U.S. Section, 2012 Financial Statements
 AUD-FM-13-17           Audit of Nonproliferation and Disarmament Fund Controls Over Contracting and
                        Project Management and Integrity of Financial Data
 AUD-FM-13-21           Independent Review of the U.S. Department of State Accounting of FY 2012 Drug
                        Control Funds and Related Performance Report
 AUD-FM-13-23           Audit of Department of State FY 2012 Compliance With Improper Payments Requirements
 AUD-HCI-13-02          Audit of U.S. Department of State Use of Short-Term Leases Overseas
 AUD-HCI-13-19          Audit of Office of Medical Services Contracting Practices for Continuing Medical
                        Education
 AUD-HCI-13-26*         Outline for Action: Physical Security Concerns at Embassy Addis Ababa
 AUD-IT-13-03           Audit of Department of State Information Security Program
 AUD-IT-13-15           Audit of International Boundary and Water Commission, United States and Mexico,
                        U.S. Section, Information Security Program
 AUD-MERO-13-18         Compliance Followup Review of Department of State Internal Controls Over the J.
                        William Fulbright Scholarship Fund in Pakistan
 AUD-MERO-13-20         Evaluation of Emergency Action Plans for U.S. Mission Afghanistan
 AUD-MERO-13-25         Audit of Bureau of Diplomatic Security Worldwide Protective Services Contracts –
                        Task Order 5 for Baghdad Movement Security
 AUD-SI-13-06*          Outline for Action: Physical Security Concerns at Consulate General Istanbul
 AUD-SI-13-14*          Outline for Action: Physical Security Concerns at Embassy Dar es Salaam
 AUD-SI-13-16*          Outline for Action: Physical Security Concerns at Embassy Kampala


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013             39
       Report Number                   Report Title

       AUD-SI-13-22                    Evaluation of Department of State Implementation of Executive Order 13526,
                                       Classified National Security Information
       ISP-I-13-01                     Review of Voucher Processing
       ISP-I-13-02                     Oversight and Management of Security Programs and Operations
       ISP-I-13-03                     Review of Consular Leadership
       ISP-I-13-04                     Review of President’s Emergency Plan for AIDS Relief (PEPFAR) Training
       ISP-I-13-06                     Review of Overseas Security Policy Board Exceptions and Secure Embassy
                                       Construction and Counterterrorism Act of 1999 Waivers
       ISP-I-13-08A                    Inspection of Embassy Phnom Penh, Cambodia
       ISP-I-13-10A                    Inspection of Embassy Manila, the Philippines
       ISP-I-13-12A                    Inspection of Embassy Santiago, Chile
       ISP-I-13-13A                    Inspection of Embassy Bangui, Central African Republic
       ISP-I-13-14                     Inspection of Regional Information Management Centers
       ISP-I-13-15A                    Inspection of Embassy Buenos Aires, Argentina
       ISP-I-13-16A                    Inspection of Embassy Abuja, Nigeria
       ISP-I-13-18                     Inspection of the Bureau of Diplomatic Security, Office of Investigations and
                                       Counterintelligence, Divisions of Special Investigations, Criminal Investigations, and
                                       Computer Investigations and Forensics
       ISP-I-13-22                     Inspection of the Foreign Service Institute
       ISP-I-13-23                     Review of Department of State Implementation of Jeddah Accountability Review
                                       Board Recommendation to Consider Remote Safe Areas at Missions Worldwide
       ISP-C-13-05                     Compliance Followup Review of Embassy Luxembourg, Luxembourg
       ISP-C-13-19                     Compliance Followup Review of Embassy Berlin, Germany
     * Sensitive content related to these reports have been included in the Classified Annex to the Semiannual Report to the Congress.



     CLASSIFIED REPORTS ISSUED
       Report Number                   Report Title

       ISP-S-13-08A                    Classified Annex to the Inspection of Embassy Phnom Penh, Cambodia
       ISP-S-13-10A                    Classified Annex to the Inspection of Embassy Manila, the Philippines
       ISP-S-13-12A                    Classified Annex to the Inspection of Embassy Santiago, Chile
       ISP-S-13-13A                    Classified Annex to the Inspection of Embassy Bangui, Central African Republic
       ISP-S-13-15A                    Classified Annex to the Inspection of Embassy Buenos Aires, Argentina
       ISP-S-13-16A                    Classified Annex to the Inspection of Embassy Abuja, Nigeria
       ISP-S-13-21                     Classified Annex to the Third On-Site Review of the Guangzhou New Consulate
                                       Compound Construction Site



40   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES

TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
QUESTIONED COSTS
                                                                                  Questioned          Unsupported
                                                                   Number           Costs                Costs
                                                                     of           (Dollars in          (Dollars in
Type of Report                                                     Reports        Thousands)          Thousands)

A.    For which no management decision had been made                   9*            $129,408*           $40,079*
      by the commencement of the reporting period
B.    Which were issued during the reporting period

      Audits
      Bureau of Diplomatic Security Worldwide Protective                1                $1,776             $1,643
      Services Contract – Task Order 5 for Baghdad
      Movement Security (AUD-MERO-13-25)

      Evaluations
                                                                        0                    $0                  $0


      Total issued during the reporting period                          1               $1,776              $1,643
      Subtotals (A+B)                                                  10            $131,184             $41,722

C.    For which a management decision was made
      during the reporting period
      (i) dollar value of disallowed costs                              2                 $373                   $0
      (ii) dollar value of costs not disallowed                         0                    $0                  $0

D.    For which no management decision has been                        10             $130,810             $41,722
      made by the end of the reporting period
      Reports for which no management decision                          9             $129,035            $40,079
      was made within six months of issuance

* Final amounts in the previous SAR were adjusted based on updated information and an analysis of open recommendations.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013                         41
     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                          Number
                                                                                            of              Dollars
     Type of Report                                                                       Reports       (in Thousands)

     A. For which no management decision had been made by the                                30*           $130,954*
        commencement of the reporting period
     B.   Which were issued during the reporting period
          Audits
          Bureau of Diplomatic Security Worldwide Protective Services Contract –              1             $362,000
          Task Order 5 for Baghdad Movement Security (AUD-MERO-13-25)
          Evaluations
                                                                                              0                      $0
          Inspections
          Compliance Followup Review of Embassy Berlin, Germany                               1               $10,500
          (ISP-C-13-19)
          Inspection of Embassy Phnom Penh, Cambodia (ISP-I-13-08A)                           1                  $360
          Inspection of Embassy Manila, Philippines (ISP-I-13-10A)                            1                 $1,314
          Inspection of IRM/OPS/SIO – Systems Integration Office and RIMC                     1               $18,300
          (ISP-I-13-14)

          Total issued during the reporting period                                            5             $392,474
          Subtotals (A+B)                                                                    35             $523,428

     C. For which a management decision was made during the                                                 $392,834
        reporting period
          (i) dollar value of recommendations that were agreed                                14            $375,509
              to by management
              – based on proposed management action
              – based on proposed legislative action
          (ii) dollar value of recommendations that were not agreed                           4               $17,325
               to by management

     D. For which no management decision has been made by the                                34             $130,629
        end of the reporting period
          Reports for which no management decision was made                                  30              $100,155
          within six months of issuance

     * Final amounts in the previous SAR were adjusted based on updated information and an analysis of open recommendations.




42   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
TABLE 3: DEFENSE CONTRACT AUDIT AGENCY (DCAA) AUDITS*
The following information pertains to audits of contracts awarded by the Office of
Acquisitions Management (AQM). AQM’s Business Operations Division, Quality
Assurance Branch, in collaboration with the Office of Inspector General, is respon-
sible for initiating and coordinating audits with the Defense Contract Audit Agency
(DCAA) in support of the contracting officers. Documented below are the ques-
tioned costs and management decisions pertaining to the October 1, 2012, to March
31, 2013, reporting period. The questioned costs represent the total of all questioned
dollars in DCAA audit reports issued during this reporting period. The manage-
ment decision captures the resolution of audit reports made by the contracting officer
during this reporting period to allow or disallow questioned costs.


Financial Results                                                                                          Dollars

 A. Questioned Costs Issued During the Reporting Period                                                   $40,980,496

 B. Management Decision During the Reporting Period

      Total Allowed                                                                                       $2,080,439

      Total Disallowed                                                                                   $15,038,398

      Total Management Decision                                                                           $17,118,837

      Total Pending                                                                                      $56,035,043
*The Department of State’s Office of Acquisitions Management, Business Operations Division, Quality Assurance Branch provided
OIG with the information. OIG did not verify the values shown.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013                               43
44   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS


SIGNIFICANT OFFICE OF AUDITS RECOMMENDATIONS
PENDING FINAL ACTION

 Report              Rec.    Report Title                                                      First
 Number              No.     Recommendation Summary                                            Reported

AUD/IQO-07-20                Review of DynCorp International, LLC, Contract Number               1/07
                             S-LMAQM-04-C-0030, Task Order 0338, for the Iraqi
                             Police Training Program Support (Joint Audit With the
                             Special Inspector General for Iraq Reconstruction)
                       2     OIG recommended the Office of Acquisitions Management
                             seek reimbursement from DynCorp for the improperly
                             authorized payment of $4.2 million that represents contrac-
                             tually unauthorized work directed by the Iraqi Ministry of
                             Interior. This work included the relocation of the residential
                             camp, the manufacture of additional VIP trailers, and the
                             construction of an Olympic-size swimming pool.

 AUD/IQO-07-48               Accounting for Government-Owned Personal Property                   9/07
                             Held by Selected Contractors in Afghanistan
                       1     OIG recommended the Department develop and implement
                             policies and procedures to achieve compliance with Federal
                             Acquisition Regulation requirements for reviewing a contrac-
                             tor’s property control system.
                       5     OIG recommended the Department evaluate its
                             current structure for monitoring government property
                             held by contractors, assess the benefits of creating a
                             property administrator function, and use this evalua-
                             tion to clearly define the authority and responsibility
                             for property oversight for each member of its contract
                             administration team.

 AUD/IQO-09-25               Audit of the Design and Construction of the New Embassy             10/09
                             Compound in Baghdad, Iraq
                       1     OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt to
                             recover $4.6 million from First Kuwaiti Trading and Contracting
                             for the infrastructure contract to make the necessary correc-
                             tions to the safe areas in the New Embassy Compound.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013         45
      Report              Rec.    Report Title                                                         First
      Number              No.     Recommendation Summary                                               Reported

                            2     OIG recommended that the Contracting Officer, Bureau of
                                  Administration, Office of Logistics Management, attempt
                                  to recover $14 million for the housing, infrastructure,
                                  support facilities, and the chancery contracts from First
                                  Kuwaiti Trading and Contracting to perform the necessary
                                  design and retrofit of seismic bracing in the New Embassy
                                  Compound.
                            4     OIG recommended that the Contracting Officer, Bureau of
                                  Administration, Office of Logistics Management, attempt to
                                  recover $1.7 million for contracts from First Kuwaiti Trading
                                  and Contracting for the housing, infrastructure, support facili-
                                  ties, and the chancery contracts so that the necessary repairs to
                                  the exterior walls and walkway and road surfaces can be made.
                            6     OIG recommended that the Contracting Officer, Bureau of
                                  Administration, Office of Logistics Management, attempt to
                                  recover approximately $500,000 from First Kuwaiti Trading
                                  and Contracting for the infrastructure contract to increase
                                  the penthouse size and air flow through the louvers of the
                                  Utility Building.
                            7     OIG recommended that the Contracting Officer, Bureau of
                                  Administration, Office of Logistics Management, attempt
                                  to recover approximately $11 million from First Kuwaiti
                                  Trading and Contracting for the infrastructure contract to
                                  compensate the Department for additional operating costs
                                  that will be incurred because the configuration of the Utility
                                  Building/Generator Plant was changed from the 10 2-mega-
                                  watt configuration to 18 1-megawatt generators.
                            8     OIG recommended that the Contracting Officer, Bureau of
                                  Administration, Office of Logistics Management, attempt
                                  to recover between $4.2 million and $4.4 million from First
                                  Kuwaiti Trading and Contracting for the infrastructure contract
                                  to correct all deficiencies to the electrical wiring, control, and
                                  distribution systems at the New Embassy Compound.
                            9     OIG recommended that the Contracting Officer, Bureau of
                                  Administration, Office of Logistics Management, attempt to
                                  recover an estimated $500,000 from First Kuwaiti Trading
                                  and Contracting for the infrastructure contract so that the
                                  necessary functions can be added to the building automation
                                  system at the New Embassy Compound.
                            10    OIG recommended that the Contracting Officer, Bureau of
                                  Administration, Office of Logistics Management, attempt
                                  to recover $4.6 million from First Kuwaiti Trading and
                                  Contracting to correct fire system deficiencies for the
                                  staff diplomatic apartments ($3.5 million for the housing
                                  contract) and repair the water main distribution system
                                  joints ($1.1 million for the infrastructure contract).


46   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
 Report              Rec.    Report Title                                                     First
 Number              No.     Recommendation Summary                                           Reported

                       11    OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover approximately $1.5 million from First Kuwaiti
                             Trading and Contracting for the infrastructure and housing
                             contracts to correct deficiencies in the plumbing traps at the
                             New Embassy Compound.
                       12    OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover approximately $33 million that was paid to First
                             Kuwaiti Trading and Contracting to perform and document
                             the required design work for the New Embassy Compound
                             Baghdad contracts.
                       13    OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt to
                             recover approximately $38 million for the housing, infra-
                             structure, support facilities, chancery, and pre-engineered
                             buildings to compensate the U.S. Government for the higher
                             future maintenance costs and negotiate a settlement with
                             First Kuwaiti Trading and Contracting to fund the addi-
                             tional long-term maintenance costs.
                       14    OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover approximately $3.8 million for the housing, infra-
                             structure, site facilities, and chancery contracts that First
                             Kuwaiti Trading and Contracting did not perform or that it
                             performed incorrectly related to commissioning activities.

 MERO-I-11-02                Performance Evaluation of Pacific Architects and Engineers         2/11
                             (PAE) Operations and Maintenance Support for the Bureau
                             of International Narcotics and Law Enforcement Affairs'
                             Counternarcotics Compounds in Afghanistan
                       3     OIG recommended that the Bureau of International
                             Narcotics and Law Enforcement Affairs ensure that a suffi-
                             cient number of dedicated contracting officer's representa-
                             tives are physically present in Afghanistan to provide proper
                             oversight of the contracts for operation and maintenance
                             support at the counternarcotics compounds.
                       6     OIG recommended that the Bureau of International
                             Narcotics and Law Enforcement Affairs, in coordina-
                             tion with Embassy Kabul and in consultation with the
                             Drug Enforcement Administration, evaluate the physi-
                             cal security requirements at the Kabul counternarcot-
                             ics compound.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013        47
      Report              Rec.    Report Title                                                       First
      Number              No.     Recommendation Summary                                             Reported

                            7     OIG recommended that the Office of Acquisitions
                                  Management require PAE to incorporate engineering data
                                  into the maintenance and operations support plan for the
                                  counternarcotics compound in Kunduz, resolve construction
                                  deficiencies in the laundry facility and kitchen, and assess the
                                  electric power needs of the compound before purchasing new
                                  diesel generators.
                            9     OIG recommended that the Bureau of International Narcotics
                                  and Law Enforcement Affairs ensure all guards at the coun-
                                  ternarcotics compound in Kunduz are familiar with standard
                                  operating procedures for security and that guards are getting
                                  sufficient rest and days off.

      MERO-I-11-05                Performance Evaluation of PAE Operations and Maintenance             1/11
                                  Support at Embassy Kabul, Afghanistan
                            2     OIG recommended that the of Administration seek reim-
                                  bursement of $193,600 from PAE for award fees paid for
                                  all four quarters of the base year of the contract (September
                                  2005–September 2006), since performance criteria had not
                                  yet been established or authorized for that year.
                            3     OIG recommended that the Bureau of Administration seek
                                  reimbursement of $41,730 from PAE for award fees granted
                                  based on points earned for training in option years 1–3
                                  (September 2006–September 2009), since all training-related
                                  work was completed at the end of the base year (September
                                  2005–September 2006).
                            4     OIG recommended that Embassy Kabul stop payment of
                                  labor fees to PAE for repairs and other unexpected tasks
                                  when this work is performed by PAE personnel during
                                  routine duty hours under the firm fixed-price portion of the
                                  contract.
                            12    OIG recommended that the Bureau of Administration seek
                                  reimbursement of $248,820 from PAE for escort services
                                  invoiced and paid for, but not rendered, from March 2009
                                  through June 2010.
                            16    OIG recommended that the Bureau of Administration
                                  modify the PAE contract to include Federal Acquisition
                                  Regulation clause 52.222-50 (Combating Trafficking in
                                  Persons).




48   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
 Report              Rec.    Report Title                                                         First
 Number              No.     Recommendation Summary                                               Reported

 AUD/CG-11-30                DOD and the Department Need Better Procedures To Monitor               7/11
                             and Expend DOD Funds for the Afghan National Police
                             Training Program
                      A.1    OIG recommended that the Executive Director, Bureau of
                             International Narcotics and Law Enforcement Affairs, in coor-
                             dination with the Chief Financial Officer, Bureau of Resource
                             Management, return DOD funds of $15.56 million that were
                             outside the scope of the reimbursable agreement by August 31,
                             2011. Specifically, return and document the following amounts:
                                a. $2.59 million potentially moved to Department of State
                                administrative costs.
                                b. $1.15 million obligated for the Department of Justice
                                Federal Prosecutors Program.
                                d. $11.81 million obligated for a DynCorp equitable
                                adjustment for contract task order S-AQMPD-04F-0460,
                                awarded in 2004 before the 2006 agreement.
                      A.2    OIG recommended that the Executive Director, Bureau
                             of International Narcotics and Law Enforcement Affairs,
                             in coordination with the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, Office of
                             Acquisitions Management:
                                a. Determine how much of the $68.21 million of unex-
                                pended obligations remaining on task order S-AQMPD-
                                05F-4305 can be deobligated. As part of the review,
                                include the DOD obligation amount that DynCorp
                                certified as available for deobligation, as well as an analysis
                                on the remaining unexpended obligation amounts. In
                                addition, provide the Department of State, Office of
                                Inspector General, supporting documentation for the
                                remaining amount of the $68.21 million that the Bureau
                                of International Narcotics and Law Enforcement Affairs
                                identifies as still valid.
                                b. Determine how much of the $23.04 million of DOD
                                unexpended obligations remaining on the in-country air
                                support contract (S-AQMPD-05-C-1103) can be deob-
                                ligated. In addition, provide the Department of State,
                                Office of Inspector General, supporting documentation
                                for the remaining amount of the $23.04 million that the
                                Bureau of International Narcotics and Law Enforcement
                                Affairs identifies as still valid.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013            49
      Report              Rec.    Report Title                                                       First
      Number              No.     Recommendation Summary                                             Reported

                           A.3    OIG recommended that the Executive Director, Bureau
                                  of International Narcotics and Law Enforcement Affairs,
                                  provide supporting documentation to the Department of
                                  State Inspector General by July 29, 2011, for the $2.25
                                  million of unsupported obligations identified in this report
                                  or return the $2.25 million to DOD by August 30, 2011.
                                  Specifically, the Executive Director should review and, if
                                  necessary, deobligate the following amount:
                                     a. $1.65 million obligated for Department of State salaries
                                     using DOD funds provided in the 2006 reimbursable
                                     agreement.
                           A.5    OIG recommended that the Executive Director, Bureau of
                                  International Narcotics and Law Enforcement Affairs (INL):
                                     a. Return to DoD and properly record the $3.99 million
                                     of unobligated DoD funds by August 31, 2011, unless
                                     INL provides documentation to the Under Secretary of
                                     Defense for Policy and the Under Secretary of Defense
                                     (Comptroller)/Chief Financial Officer, DOD, and DOD
                                     officials agree that the obligations were within the scope of
                                     the reimbursable agreements.
                                     b. Develop, implement, and document adequate controls
                                     to ensure that the Bureau of International Narcotics and
                                     Law Enforcement Affairs uses DOD funds for specific
                                     purposes in accordance with laws and documents the
                                     appropriate use. Specifically, officials should:
                                       1. Designate the appropriate offices responsible for
                                       ensuring that the obligation directly relates to the
                                       requirements in the reimbursable agreements.
                                       2. Retain documentation supporting that the obliga-
                                       tion is in compliance with the reimbursable agreement
                                       requirements.
                           A.6    OIG recommended that the Director, Bureau of
                                  Administration, Office of Logistics Management, Office of
                                  Acquisitions Management, require all contracting officers
                                  and supporting staff to take an appropriations law training
                                  class.




50   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
 Report              Rec.    Report Title                                                      First
 Number              No.     Recommendation Summary                                            Reported

                      A.9    OIG recommended that the Executive Director, Bureau of
                             International Narcotics and Law Enforcement Affairs; Under
                             Secretary of Defense for Policy; and Under Secretary of
                             Defense (Comptroller)/Chief Financial Officer, DOD, reach
                             an agreement as to whether the $9.50 million obligation for
                             a United Nations Law and Order Trust Fund–Afghanistan
                             contribution was appropriately obligated. If officials do not
                             reach an agreement, the Bureau of International Narcotics
                             and Law Enforcement Affairs should return the $9.50 million
                             of DOD funds obligated for a United Nations Law and
                             Order Trust Fund–Afghanistan contribution.
                     C.2.b   OIG recommended that the Assistant Secretary of State,
                             Bureau of International Narcotics and Law Enforcement
                             Affairs, in coordination with the contracting officer, Bureau
                             of Administration, Office of Logistics Management, Office
                             of Acquisitions Management, for the Civilian Police contract,
                             review the approximately $9.4 million in questioned costs
                             identified by the Defense Contract Audit Agency and take
                             action to recover those costs.

 AUD/CG-11-44                Afghan National Police Training Program Would Benefit From          8/11
                             Better Compliance With the Economy Act and Reimbursable
                             Agreements
                       1     OIG recommended that the Assistant Secretary of State,
                             Bureau of International Narcotics and Law Enforcement
                             Affairs, in coordination with the Assistant Secretary of State,
                             Bureau of Resource Management and Chief Financial Officer:
                                b. Review all available supporting documentation related
                                to the Corrections System Support Program (CSSP) secu-
                                rity salaries and recover any overpayments related to the
                                $0.37 million paid to DynCorp for CSSP security salaries
                                and identify and recover any additional payments made for
                                CSSP security salaries on task orders 4305 and 5375.
                                c. Determine whether the Bureau of International
                                Narcotics and Law Enforcement Affairs improperly obli-
                                gated DOD-provided Afghanistan Security Forces Fund
                                appropriations for any other INL programs that were receiv-
                                ing support on the DOD-funded task orders. If so, identify
                                and return to DOD the applicable Afghanistan Security
                                Forces Fund appropriations by September 30, 2011.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013         51
      Report              Rec.    Report Title                                                       First
      Number              No.     Recommendation Summary                                             Reported

                            3     OIG recommended that the Assistant Secretary of State,
                                  Bureau of Resource Management and Chief Financial
                                  Officer, and the Director, Defense Security Cooperation
                                  Agency, perform a joint investigation of the potential
                                  Antideficiency Act violations for the $1.05 million of funds
                                  obligated for Personal Services Contracts and the estimated
                                  $75.60 million of funds obligated without considering
                                  Economy Act and reimbursable agreement limitations.

      AUD/IP-12-02                Audit of Bureau of East Asian and Pacific Affairs Compliance         10/11
                                  With Trafficking in Persons Requirements
                            1     OIG recommended that the Office to Monitor and Combat
                                  Trafficking in Persons include, in the Foreign Affairs
                                  Manual, the U.S. Government policy regarding trafficking
                                  in persons (TIP) to include the definition of TIP activity and
                                  information on the prohibition against involvement in acts of
                                  TIP for Department personnel and contractors, the associ-
                                  ated penalties for violations, and the mechanism to report
                                  such violations.
                            2     OIG recommended that the Office to Monitor and Combat
                                  Trafficking in Persons, in consultation with the Office
                                  of the Legal Advisor and the Director General of Human
                                  Resources, develop and include a trafficking in persons policy
                                  in the Department of State Standards of Conduct.
                            3     OIG recommended that the Office to Monitor and
                                  Combat Trafficking in Persons, in consultation with the
                                  Department of State’s Office of Inspector General, Office of
                                  Investigations, the Bureau of Diplomatic Security, the Office
                                  of the Procurement Executive, and the Under Secretary for
                                  Management, designate an office within the Department for
                                  establishing and implementing an effective mechanism for
                                  employees to report trafficking in persons violations.
                            4     OIG recommended that the Office to Monitor and Combat
                                  Trafficking in Persons, in consultation with the Foreign Service
                                  Institute and the Director General of Human Resources, expand
                                  trafficking in persons (TIP) training to all Department employ-
                                  ees, to include increasing awareness of the U.S. Government’s
                                  zero tolerance policy towards TIP and reducing the incidence of
                                  TIP activity involving contractor personnel and employees who
                                  represent the United States abroad.




52   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
 Report              Rec.    Report Title                                                      First
 Number              No.     Recommendation Summary                                            Reported

 AUD/IP-12-03                Improved Contract Documentation and Monitoring by                   11/11
                             the Regional Procurement Support Office Are Needed for
                             Construction Projects Associated With the President’s Emergency
                             Plan for AIDS Relief (PEPFAR)
                       3     OIG recommended that the Regional Procurement Support
                             Office in Frankfurt, Germany, review existing PEPFAR
                             construction contracts and reclaim any contingency costs
                             inappropriately included in contracts as practicable.
                       5     OIG recommended that the Regional Procurement Support
                             Office in Frankfurt, Germany, require posts with substantial
                             planned costs for PEPFAR construction projects to obtain a
                             technical advisor with construction expertise for monitoring
                             construction contracts.

 AUD/HCI-12-30               Audit of Department of State Drug-Free Workplace Program Plan       2/12
                       1     OIG recommended that the Bureau of Human Resources
                             develop and implement drug testing procedures for
                             Department employees serving in sensitive positions overseas.
                       2     OIG recommended that the Bureau of Human Resources,
                             in coordination with the Office of Medical Services and the
                             Office of the Legal Adviser, develop a random sampling meth-
                             odology, obtain approval from the Interagency Coordinating
                             Group Executive Committee to employ the methodology,
                             and implement random drug testing as prescribed by the
                             Department Drug-Free Workplace Program Plan.
                       3     OIG recommended that the Bureau of Human Resources,
                             in coordination with the Office of Medical Services and the
                             Office of the Legal Adviser, develop procedures and controls
                             to ensure that all aspects of drug testing are conducted in
                             accordance with the Department Drug-Free Workplace
                             Program Plan, including establishing the frequency and
                             timing of random sample testing, reconciling random sample
                             selection with drug tests taken and ensuring deferrals are
                             appropriate and followup testing occurs, establishing controls
                             to ensure employees with positive drug test results receive
                             followup testing, notifying employees of the option to be
                             voluntarily drug tested, and developing procedures and
                             controls over program reporting and recordkeeping.
                       4     OIG recommended that the Bureau of Human Resources,
                             in coordination with the Office of Medical Services, devote
                             appropriate program oversight, management emphasis, and
                             resources to ensure that the Department is achieving a drug-
                             free workplace.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013         53
     SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
     MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
     Report Number: AUD/CG-11-30
     Subject: Department of Defense Funds Provided to Department of State for the Afghan
     National Police
     Date Issued: July 11, 2011
     Reason for not being resolved: OIG recommended that the Department perform
     a joint investigation with the Defense Security Cooperation Agency of potential
     Antideficiency Act violations of funds obligated outside the scope of the reimburs-
     able agreements. The Bureau of Comptroller and Global Financial Services was
     requested to respond to recommendations by February 6, 2012. However, OIG had
     not received a response as of the end of this reporting period. Therefore, six recom-
     mendations (Nos. A.8.a, b, c, d, e, and f) remain unresolved.
     Projected date of resolution: August 2013



     Report Number: AUD/CG-11-44
     Subject: Afghan National Police Training Program Would Benefit From Better
     Compliance With the Economy Act and Reimbursable Agreements
     Date Issued: August 25, 2011
     Reason for not being resolved: OIG recommended that the Department of State
     identify and return funds to the Department of Defense that were improperly obli-
     gated; develop and implement policies and procedures to ensure that any appropria-
     tion limitations on funds transferred to other U.S. Government agencies were taken
     into account before obligating funds for personal services contracts; and develop
     policies and procedures to ensure that before obligating funds under an Economy Act
     order, the Department validated that the ordering agency had the necessary authority
     to obligate funds for those purposes. The Bureau of International Narcotics and Law
     Enforcement Affairs was requested to respond to the recommendation by January
     9, 2012. However, OIG had not received a response as of the end of this reporting
     period. Therefore, three recommendations (Nos. 1. a, d, and e) remain unresolved.
     Projected date of resolution: August 2013




54   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
Report Number: AUD/SI-12-36
Subject: Limited-Scope Audit of Department of State Management of the Afghanistan
Civilian Uplift
Date Issued: May 31, 2012
Reason for not being resolved: OIG recommended that the Department codify,
in the Foreign Affairs Manual, the practice of updating the Global Employment
Management System for all Department personnel by changing the organization
code to the code for the newly assigned posts effective on the date that the personnel
leave post and direct overseas posts and domestic offices that have civilian personnel
being assigned to Afghanistan or to another post where restricted funds are being
used to immediately update the Global Employment Management System by chang-
ing the organization code to the code of the newly assigned posts for incoming and
departing Afghanistan civilian uplift personnel. The Bureau of Human Resources
was requested to respond to the recommendation by July 2, 2012. However, OIG had
not received a formal response as of the end of this reporting period. Therefore, two
recommendations (Nos. 1 and 3) remain unresolved.
Projected date of resolution: July 2013.



Report Number: AUD-MERO-12-43
Subject: Evaluation of Invoices and Payments for the Embassy Baghdad Operations and
Maintenance Contract
Date Issued: August 9, 2012
Reason for not being resolved: OIG recommended that the Department direct
the contracting officer to conduct a comprehensive review of all contractor invoices
before the Embassy Baghdad operations and maintenance contract is closed to
ensure that all unallowable transportation costs, including the approximately $2.7
million identified in this report, are recovered from the contractor. The Department
responded that despite the wording in the contract, it was never the intent or the
desire of the Department to burden the contractor with the costs of transporting
equipment and materials into Iraq during a contingency operation and that the
appropriate Federal Acquisition Regulation (FAR) clauses which would have specifi-
cally allowed reimbursement of transportation costs were erroneously not included
in the contract or in the subsequent task orders. OIG noted, however, that regardless
of the Department’s stated intent, the language in the contract does not allow for the
reimbursement of the transportation costs and such costs should be recovered from
the contractor. Or, if the Department believes that the clause that was included is
incorrect and/or that other clauses allowing for the reimbursement of transporta-
tion costs are applicable, the Department should modify the contract to include


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   55
     the appropriate FAR clauses and language. Therefore, Recommendation 1 remains
     unresolved.
     Projected date of resolution: July 2013.



     Report Number: AUD/MERO-12-47
     Subject: Compliance Followup Review of Department of State Actions To Reduce the
     Risk of Trafficking in Persons Violations in Four States in the Cooperation Council for
     the Arab States of the Gulf
     Date Issued: September 24, 2012
     Reason for not being resolved: OIG recommended that Embassy Riyadh establish
     and implement a monitoring process for service contracts to ensure that contractors
     comply with host country labor laws and contractor-provided housing plans. OIG
     also recommended that Embassy Riyadh establish a process to ensure that statements
     of work for service contracts include requirements that contractors should provide the
     following: (1) detailed descriptions of housing accommodations for foreign work-
     ers, workers with standard contracts in English and workers’ native languages that
     include policies on wages, overtime rates, allowances, salary increases, the contract
     terms, leave accrual, and other personnel matters; (2) workers with written infor-
     mation, in workers’ native languages, on relevant Saudi Arabia labor laws; and (3)
     workers with written information, in workers’ native languages, about the U.S.
     Government’s zero tolerance policy toward trafficking in persons. The Embassy
     should also inform the janitorial contractor in Dhahran that keeping workers in
     unsafe housing is unacceptable to the U.S. Government. Embassy Riyadh was
     requested to respond to the recommendation by October 25, 2012. However, OIG
     had not received a response as of the end of this reporting period. Therefore, three
     recommendations (Nos. 7, 8, and 9) remain unresolved.
     Projected date of resolution: September 2013.


     REVISED MANAGEMENT DECISIONS
     None.




56   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
RECOMMENDATIONS

DOD and DOS Need Better Procedures To Monitor and Expend DOD Funds for
the Afghan National Police Training Program (DOD Project No. D-2011-080 &
DOS Project No. AUD/CG-11-30)
In July 2011, a joint audit by the OIGs for the Department of Defense (DOD)
and the Department of State (Department) reported that the Department did not
properly obligate or return to DOD approximately $124 million of DOD funds
provided for the Afghan National Police Training program. In November, 2012, the
Department informed OIG that it had returned almost $77 million to DOD to date
and was in the process of evaluating and deobligating other funds for return to DOD
in 2013.

Review of Controls and Notification and Access to Passport Records in the
Department of State’s Passport Information Electronic Records System (PIERS)
(AUD/IP-08-29)
In July 2008, OIG identified many control weaknesses relating to the prevention
and detection of unauthorized access to passport and applicant information and the
subsequent response and disciplinary processes when unauthorized access occurs.
This review was performed in response to media reports of March 2008 that the
passport files of three U.S. Senators who were also presidential candidates had been
improperly accessed by Department employees and contract staff. OIG closed the last
of the report’s 22 recommendations based on evidence that the Department’s Bureau
of Consular Affairs had revised and strengthened the control weaknesses identified in
the report.


SUMMARY OF INSPECTION REPORTS WITHOUT MANAGEMENT
DECISION FOR MORE THAN 6 MONTHS
None.


REVISED MANAGEMENT DECISIONS
None.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   57
     MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
     RECOMMENDATIONS

     Inspection of Embassy Conakry, Guinea (ISP-I-11-44A)
     In the 2011 inspection report of Embassy Conakry, OIG recommended that the
     mission reduce its motor pool inventory from 67 to 40 vehicles or less. Embassy
     Conakry reported that it has implemented OIG’s recommendation, resulting in funds
     put to better use of $179,760.

     Inspection of Embassy Seoul, South Korea (ISP-I-11-55A)
     In the 2011 inspection report of Embassy Seoul, OIG recommended that the embassy
     develop and implement a plan to reduce the size of the International Cooperative
     Administrative Support Services (ICASS) vehicle fleet and motor pool staff through
     attrition. Embassy Seoul reported that it has reduced the ICASS motor pool staff by
     three positions, and in FY 2013 two additional staff positions will be vacated due to
     retirement and will not be filled, for a total of five positions. Additionally, the ICASS
     fleet was reduced by three vehicles, and two additional vehicles will not be replaced in
     FY 2013. The total estimated cost savings is approximately $360,000.

     Inspection of Embassy Caracas, Venezuela (ISP-I-12-09A)
     In the 2012 inspection report of Embassy Caracas, OIG recommended that the embassy
     resolve claims from the former local guard contractor and deobligate any remaining
     Diplomatic Security funds. Embassy Caracas reported that final payment was made
     resulting in the deobligation of the remaining balance of approximately $586,000.

     Inspection of San Jose, Costa Rica (ISP-I-12-23A)
     In the 2012 inspection report of Embassy San Jose, OIG recommended the elimina-
     tion of an information management specialist position. Embassy San Jose abolished
     an FP-05 information management specialist position and plans to hire an eligible
     family member (EFM) to fill an FP-07 information management assistant position in
     fall 2013, resulting in recurring savings of approximately $521,000.

     Inspection of Embassy Vienna, Austria (ISP-I-12-16A)
     In the 2012 inspection report of Embassy Vienna, OIG recommended that Embassy
     Vienna eliminate a locally employed staff position in the Federal Benefits Unit when
     that unit’s operations close in FY 2012. Embassy Vienna reported the recommenda-
     tion was implemented for recurring savings of $140,726.




58   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
Inspection of Embassy Nassau, the Bahamas (ISP-I-12-08A)
In the 2012 inspection report of Embassy Nassau, OIG recommended that an office
manager position be converted to an EFM position. Embassy Nassau reported that it
is converting the position and will fill it with an EFM during the 2013 bidding cycle,
resulting in recurring savings of approximately $492,000 annually.

Inspection of the U.S. Mission to the Organization for Economic Cooperation
and Development (USOECD) (ISP-I-12-27)
OIG recommended that the mission eliminate the language requirement for
three entry-level positions, as proficiency in French was not essential to the work.
USOECD agreed to remove the language requirement during the next bidding cycle,
which will result in potential costs savings of $234,000.


SIGNIFICANT INSPECTIONS RECOMMENDATIONS PENDING
FINAL ACTION

 Report              Rec.    Report Title                                                          First
 Number              No.     Recommendation Summary                                                Reported

 ISP/I-11-57                 Inspection of the Office of the Director of U.S. Foreign Assistance    08/2011
                       6     OIG recommended that the Office of the Director of U.S.
                             Foreign Assistance, in coordination with the Bureau of
                             Resource Management, should prepare a study to determine
                             whether there are cost effective solutions for collecting timely
                             data on budget execution and making the data accessible
                             to the Office of the Director of U.S. Foreign Assistance, its
                             operating units, and stakeholders.

 ISP/I-11-11                 Inspection of Department-Required and Congressionally                  10/2010
                             Mandated Reports: Assessment of Resource Implications
                       3     OIG recommended that the Office of Management Policy,
                             Rightsizing and Innovation, in coordination with the Bureau
                             of Budget and Planning (formerly the Bureau of Resource
                             Management, should direct all missions to document the
                             approximate costs (to reflect time and pay scales of personnel
                             involved) that are devoted to the preparation of congres-
                             sionally mandated and Department reports, and include this
                             data in annual budget requests.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013             59
      Report              Rec.    Report Title                                                First
      Number              No.     Recommendation Summary                                      Reported

      ISP/I-11-55A                Inspection of Embassy Seoul, Korea                           08/2011
                            12    OIG recommended that the Bureau of Overseas Buildings
                                  Operations should identify and evaluate the costs associ-
                                  ated with the United States Forces Korea’s departure from
                                  the Yongsan Garrison and accelerate the construction of
                                  Embassy Seoul’s new embassy compound project on the
                                  Capital Security Construction Program schedule.




60   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS
                                                                                           Type of
Report Number     Report Title                                         Contractor
                                                                                           Engagement
AUD-FM-13-01      Independent Accountant’s Report on the Application   Kearney & Company Financial
                  of Agreed-Upon Procedures: Employee Benefits,                          Statement
                  Withholdings, Contributions, and Supplemental
                  Semiannual Headcount Reporting Submitted to the
                  Office of Personnel Management
AUD-FM-13-07      Independent Auditor’s Report on the U.S.             Kearney & Company Financial
                  Department of State 2012 and 2011 Special-                             Statement
                  Purpose Financial Statements
AUD-FM-13-08      Independent Auditor’s Report on the U.S.             Kearney & Company Financial
                  Department of State 2012 and 2011 Financial                            Statement
                  Statements
AUD-FM-13-09      Management Letter Related to the Audit of the U.S.   Kearney & Company Financial
                  Department of State 2012 and 2011 Financial                            Statement
                  Statements
AUD-FM-13-10      Independent Auditor’s Report on the International    Kearney & Company Financial
                  Boundary and Water Commission, United States                           Statement
                  and Mexico, U.S. Section, 2012 Financial
                  Statements
AUD-FM-13-11      Management Letter Related to the Audit of the        Kearney & Company Financial
                  International Boundary and Water Commission,                           Statement
                  United States and Mexico, U.S. Section, 2012
                  Financial Statements
AUD-FM-13-17      Audit of Nonproliferation and Disarmament Fund Kearney & Company Performance
                  Controls Over Contracting and Project Management                 Audit
                  and Integrity of Financial Data
AUD-FM-13-23      Audit of Department of State FY 2012 Compliance      Kearney & Company Performance
                  With Improper Payments Requirements                                    Audit
AUD-IT-13-03      Audit of Department of State Information Security    Williams, Adley &   Independent
                  Program                                              Company-DC, LLP     Audit




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013        61
62   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 6: PEER REVIEWS OF
OIG OPERATIONS

During this semiannual reporting period, the Department of the Interior (DOI)
OIG reviewed the system of quality control for OIG’s Office of Audits. Based on its
review, DOI determined that the Office of Audits system of quality control in effect
for the year ended September 30, 2012, was suitably designed to provide reason-
able assurance that the Office of Audits is performing and reporting in conformity
with applicable professional standards in all material respects. The Office of Audits
received a peer review rating of pass.
The report’s accompanying letter of comment contained one recommendation that,
while not affecting the overall opinion, was designed to further strengthen the system
of quality control in the Office of Audits.
The report is available on OIG’s Web site at www.oig.state.gov.
The OIG Office of Investigations (INV) did not have an external peer review of
its investigative operations during this reporting period. The last review conducted
in September 2011 by the Railroad Retirement Board, Office of Inspector General
found the Office of Investigations to be in compliance with the internal safeguards
and management procedures standards set by the Council of Inspectors General on
Integrity and Efficiency, and did not make any formal recommendations in its report.
INV’s next peer review will be conducted by the Tennessee Valley Authority in 2014.
In March 2013, INV conducted a peer review of the Office of Personnel
Management, Office of Inspector General.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   63
64   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
BROADCASTING
  BOARD OF
 GOVERNORS
OFFICE OF AUDITS

Audit of the Broadcasting Board of Governors Information Security Program
(AUD-IT-IB-13-04)
In response to the Federal Information Security Management Act of 2002 (FISMA),
OIG had an independent public accountant review BBG’s Information Security
Program to evaluate BBG’s progress in addressing FISMA information management
and information security program requirements. The independent public accoun-
tant found that BBG, since the FY 2011 review, had taken the following actions to
improve management controls: completed security tests and evaluations and devel-
oped risk assessments and system security plans for its major systems, implemented
a more robust security incident response tracking process, and developed password
management policies and procedures to reduce the risk of unauthorized access.
Overall, BBG had continued its efforts to further develop its information security
program. However, for BBG to improve and bring the program into compliance
with applicable requirements, the independent public accountant made recommenda-
tions for BBG to address control weaknesses in its security standards and procedures,
system inventory, security configuration management, security awareness train-
ing, plans of action and milestones, remote access program, user account manage-
ment controls, enterprise-wide and system-specific contingency plans, and incident
response.

Independent Auditor’s Report on the Broadcasting Board of Governors 2012
and 2011 Financial Statements (AUD-FM-IB-13-12)
In its audit of BBG’s financial statements as of and for the years ended September
30, 2012 and 2011, an independent external auditor found that the consolidated
balance sheets and the related consolidated statements of net cost and changes in net
position and combined statements of budgetary resources present fairly, in all mate-
rial respects, the financial position of BBG as of September 30, 2012 and 2011, and
its net cost of operations, changes in net position, and budgetary resources for the
years then ended, in conformity with accounting principles generally accepted in the
United States of America.
The auditor found significant deficiencies in internal control over property, unliqui-
dated obligations, the liability for Foreign Service National after-employment bene-
fits, and accounts payable.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   67
     Management Letter Related to the Audit of the Broadcasting Board of
     Governors 2012 and 2011 Financial Statements (AUD-FM-IB-13-13)
     During the audit of BBG’s 2012 and 2011 financial statements, the independent
     external auditor identified internal control weaknesses or instances of noncompli-
     ance with selected provisions of applicable laws and regulations relating to personal
     services contractors employment taxes, American payroll—time and attendance,
     information technology security, reconciliation of transactions recorded in suspense
     accounts, financial reporting process, contingent liabilities, and Statement of Net
     Cost—indirect cost allocation. The external auditor recommended that BBG take
     appropriate action to address these weaknesses.

     Audit of Broadcasting Board of Governors FY 2012 Compliance With Improper
     Payments Requirements (AUD-FM-IB-13-24)
     In compliance with the Improper Payments Information Act of 2002, as amended by
     the Improper Payments Elimination and Recovery Act of 2010, OIG conducted this
     second annual audit to assess BBG’s FY 2012 compliance with improper payments
     requirements. OIG found that BBG had complied with improper payments require-
     ments. Specifically, BBG conducted an improper payments risk assessment of its
     significant programs; implemented a program of internal control to prevent, detect,
     and recapture improper payments; and reported the required improper payments
     information in its FY 2012 Performance and Accountability Report.




68   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
OFFICE OF INSPECTIONS

Inspection of the Broadcasting Board of Governors (ISP-IB-13-07)
OIG found the nine-member Broadcasting Board of Governors to be committed to
the goals of U.S. international broadcasting, characterized by journalism of the high-
est caliber and a commitment to supporting democracy and freedom; however, the
Board was failing in its mandated duties, including implementation of key aspects
of its 5-year strategic plan. The Board’s dysfunction stemmed from a flawed legisla-
tive structure; acute internal dissension; chronic vacancies and absences of members;
and a part-time schedule that did not allow for effective supervision of broadcasting.
The system that allowed Governors to serve concurrently on the BBG Board and the
corporate boards of the broadcast entities created conflicts of interest and confusion
regarding roles and responsibilities. BBG also lacked a comprehensive travel policy for
both domestic and international official trips.
OIG recommended that BBG coordinate with the Office of Management and
Budget and the congressional oversight committees to propose new legislation for
international broadcasting that includes enhancing authority for the Board Chairman
in Board governance and focusing the Board on its strategic oversight and direction
roles; appointing a chief executive officer to coordinate operational aspects of the
broadcast entitities and their support structure; removing Governors from the corpo-
rate boards of the broadcast entities; and implementing a mechanism for censure or
removal of Governors for actions that impede the Board’s execution of its duties. OIG
also made recommendations for BBG to implement a comprehensive travel policy
that relates Board travel to strategic objectives and followup actions and to strengthen
internal Board governance.

Review of the Broadcasting Board of Governors’ Operations in Phnom Penh,
Cambodia (ISP-IB-13-09)
OIG’s review of BBG operations in Cambodia focused on the Voice of America
(VOA) Khmer Service and Radio Free Asia (RFA) news operations, neither of which
had resident American staff. OIG found no serious management or security issues at
either organization and thus made no recommendations. At the time of the inspec-
tion, both organizations were facing the possibility of legal sanctions on the part of
the Royal Government of Cambodia, which had summoned representatives of VOA
and RFA to complain about reporting produced by both organizations.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   69
     Inspection of the International Broadcasting Bureau’s Philippines Transmitting
     Station (ISP-IB-13-11)
     OIG inspected the International Broadcasting Bureau’s (IBB) Philippines
     Transmitting Station, which provides shortwave and mediumwave broadcasting
     support to China and Southeast Asia and supports satellite relay service for VOA
     and other BBG operations. Although the station was operating efficiently and meet-
     ing IBB performance standards, the inspectors observed weaknesses in property
     management and cashier operations and made recommendations to address these
     issues. Long-standing community outreach and land use programs had built goodwill
     with the IBB Philippines Transmitting Station’s local neighbors but posed potential
     conflict-of-interest risks. At the time of the inspection, the transmitting station was
     managing these risks adequately.
     BBG had tentative plans to close the Poro transmitting site, a step that would reduce
     operating costs annually by $650,000, allow IBB to reprogram funds to China and
     Tibet broadcasting, and add a VOA satellite broadcasting component to these target
     markets. However, IBB was awaiting authorization from Congress and resolution of
     the President’s FY 2013 Budget Request before formally communicating instructions
     to close the site or making plans to implement closure. The main transmitting station
     at the Tinang site had assumed responsibility for remote control operations in the Poro,
     Saipan, and Tinian sites, which allowed staff reductions and cost savings. Overall staff-
     ing levels had declined by 12 positions since the last OIG inspection in 2006.

     Review of the Broadcasting Board of Governors’ Operations in Nigeria
     (ISP-IB-13-17)
     In a country where 88 percent of the population relied on radio broadcasts as their
     main source of news and information, VOA radio broadcasts to the region via affiliate
     stations were one of the few ways of maintaining communication with Nigerian popu-
     lations. Despite increasing Islamic extremist violence in the country, the BBG market-
     ing representative was pursuing an aggressive marketing strategy that had produced
     several new programming affiliations. A regional VOA representative was exploring the
     possibility of establishing an office in Abuja to develop new markets in the region.

     Compliance Followup Review of International Broadcasting Bureau Germany
     Transmitting Station (ISP-IB/C-13-20)
     The IBB Germany Transmitting Station had complied with recommendations to
     improve the procurement process and send a démarche to the German Ministry of
     Foreign Affairs regarding tax exemption procedures. All recommendations from the
     2011 security annex report had been complied with and closed. The OIG team reis-
     sued two recommendations to establish standard operating procedures for the admin-
     istrative network and develop training for locally employed staff in the information
     technology section.


70   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 1: INVESTIGATIVE
ACTIVITIES

              Preliminary Inquiries
               Opened                                                           0
               Closed                                                           0
              Investigations
               Opened                                                           1
               Closed                                                           0
               Pending (3/31/13)                                                4
              Criminal Actions
               Referrals for Prosecution                                        0
               Indictments/Informations                                         0
               Convictions                                                      0
               Sentencings (Months Imprisonment)                                0
               Sentencings (Months Probation)                                   0
               Declinations                                                     0
              Civil Actions
               Civil Referrals                                                  0
               Civil Judgments                                                  0
               Civil Declinations                                               0
              Administrative Referrals
               Referrals for Personnel Action                                   0
               Suitability Referrals to DS                                      0
               Contractor Suspension/Debarment Referrals to OPE                 0
              Administrative Actions
               Removals                                                         0
               Suspensions                                                      0
               Reprimand/Admonishments                                          0
               Contractor/Grantees Suspended                                    0
               Contractor/Grantees Debarred                                     0
               Contractor/Grantees High Risk                                    0
              Monetary Recoveries
               Criminal Fines/Recoveries                                       $0
               Civil Recoveries                                                $0
               Administrative Recoveries                                       $0
               Total Investigative Recoveries                                  $0




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   71
72   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 2: REPORTS ISSUED

 Report Number           Report Title

 AUD-FM-IB-13-12         Independent Auditor’s Report on the Broadcasting Board of Governors 2012
                         and 2011 Financial Statements
 AUD-FM-IB-13-13         Management Letter Related to the Audit of the Broadcasting Board of
                         Governors 2012 and 2011 Financial Statements
 AUD-FM-IB-13-24         Audit of Broadcasting Board of Governors FY 2012 Compliance With
                         Improper Payments Requirements
 AUD-IT-IB-13-04         Audit of the Broadcasting Board of Governors Information Security
                         Program
 ISP-IB-13-07            Inspection of the Broadcasting Board of Governors
 ISP-IB-13-09            Review of the Broadcasting Board of Governors’ Operations in Phnom Penh,
                         Cambodia
 ISP-IB-13-11            Inspection of the International Broadcasting Bureau’s Philippines
                         Transmitting Station
 ISP-IB-13-17            Review of the Broadcasting Board of Governors’ Operations in Nigeria
 ISP-IB/C-13-20          Compliance Followup Review of International Broadcasting Bureau
                         Germany Transmitting Station




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   73
74   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES


TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
QUESTIONED COSTS
                                                      Number      Questioned      Unsupported
                                                        of      Costs (Dollars   Costs (Dollars
 Type of Report                                       Reports   in Thousands)    in Thousands)

 A.   For which no management decision has been         0            $0                $0
      made by the commencement of the reporting
      period

B.    Which were issued during the reporting period     0            $0                $0

      Subtotals (A + B)                                 0            $0                $0

C.    For which a management decision was made
      during the reporting period based on formal
      administrative or judicial appeal
      (i) dollar value of disallowed costs              0            $0                $0
      (ii) dollar value of costs not disallowed         0            $0                $0

D.    For which no management decision has been         0            $0                $0
      made by the end of the reporting period
      Reports for which no management decision          0            $0                $0
      was made within 6 months of issuance




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   75
     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                      Number            Dollars
      Type of Report                                                 of Reports     (in Thousands)

      A.   For which no management decision has been made by             0                $0
           the commencement of the reporting period

      B.   Which were issued during the reporting period                 0                $0

           Subtotals (A + B)                                             0                $0

      C.   For which a management decision was made during the
           reporting period
           (i) dollar value of recommendations that were agreed to       0                $0
               by management
               – based on proposed management action
               – based on proposed legislative action
           (ii) dollar value of recommendations that were not            0                $0
                agreed to by management

      D.   For which no management decision has been made by             0                $0
           the end of the reporting period

           Reports for which no management decision was made             0                $0
           within 6 months of issuance




76   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS

SIGNIFICANT AUDIT RECOMMENDATIONS PENDING FINAL
ACTION
None.


SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
None.


REVISED MANAGEMENT DECISIONS
None.


MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
RECOMMENDATIONS
None.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   77
78   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

                                                                                        Type of
Report Number       Report Title                                   Contractor
                                                                                        Engagement
AUD-IT-IB-13-04     Audit of the Broadcasting Board of Governors   Williams, Adley &    Independent
                    Information Security Program                   Company-DC, LLP      Audit
AUD-FM-IB-13-12 Independent Auditor’s Report on the Broadcasting   Clark Leiper, PLLC   Financial
                Board of Governors 2012 and 2011 Financial                              Statement
                Statements
AUD-FM-IB-13-13 Management Letter Related to the Audit of the      Clark Leiper, PLLC   Financial
                Broadcasting Board of Governors 2012 and 2011                           Statement
                Financial Statements




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013     79
80   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
CONGRESSIONAL AND PUBLIC
AFFAIRS ACTIVITIES


TESTIMONY AND BRIEFINGS
During this reporting period, OIG’s briefings to congressional staff included the
following:

Senate Committee on Foreign Relations
    •	 On November 21, 2012, a briefing provided by the Office of Audits, Middle
       East Region Operations (MERO), on the directorate’s report Evaluation of
       Local Guard Force Contract for Embassy Islamabad and Consulates General
       Karachi, Lahore, and Peshawar (AUD-MERO-12-46) focused on “best value
       contracting” and its benefits when awarding local guard force contracts for
       high threat posts.
    •	 On March 4, 2013, the Assistant Inspectors General (AIGs) from the Offices
       of Audits, Inspections, and Investigations briefed committee oversight staff-
       ers on OIG priorities and resource allocations for 2013. The AIGs provided
       a followup briefing for several personal staff representatives of Committee
       members on April 4, 2013.

Senate Committee on Homeland Security and Government Affairs
    •	 On October 18, 2012, the AIGs for the Offices of Audits and Inspections
       provided committee staffers with a briefing on OIG oversight of the Department’s
       post-Benghazi mission security issues–both ongoing and planned. The discussion
       focused on issues of physical security and intelligence sharing.
    •	 On January 8, 2013, the AIGs of Audits, Inspections, and Investigations
       briefed staffers for the Subcommittee on Financial and Contracting Oversight
       on products OIG was planning to issue in 2013, major challenges expected,
       and how the Subcommittee could be helpful. A followup briefing for new
       staffers was scheduled for April 5, 2013.
    •	 Representatives from Audit’s Financial Management Division are expected
       to brief staffers for the Financial and Contracting Oversight Subcommittee
       on the Audit of the Broadcasting Board of Governors 2012 and 2011 Financial
       Statements on April 3, 2013.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   81
         •	 On March 1, 2013, the AIG of the Office of Audits and the Director,
            Security and Intelligence, Office of Inspections, provided a followup briefing
            to new committee staffers on oversight of the Department’s post-Benghazi
            mission security initiatives. A range of issues were discussed, including OIG’s
            evaluation of Department security standards and the Department’s analysis,
            dissemination, and utilization of threat intelligence.

     House Committee on Foreign Affairs
         •	 On February 12, 2013, a briefing was provided by the Director, Security and
            Intelligence, Office of Inspections on the report, Review of Overseas Security
            Policy Board Exceptions and Secure Embassy Construction and Counterterrorism
            Act of 1999 Waivers (ISP-I-13-06), in which OIG sought to compare the
            Bureau of Diplomatic Security’s records with those of overseas posts to deter-
            mine whether posts had complied with stipulations under which exceptions
            or waivers were granted.
         •	 On February 13, 2013, a briefing was provided by the Coordinator for
            International Broadcasting in the Office of Inspections on OIG’s report
            Inspection of the Broadcasting Board of Governors (ISP-IB-13-07). The briefing
            focused on the reports methodology and recommendations.
         •	 In March 2013, OIG provided a series of briefings to Committee staffers
            on a range of reports, including OIG’s Inspection of the Bureau of Diplomatic
            Security, Office of Investigations and Counterintelligence, Divisions of Special
            Investigations, Criminal Investigations, and Computer Investigations Forensics
            (ISP-I-13-18); Inspection of Regional Information Management Centers
            (ISP-I-13-14); and Inspection of Embassy Bangui, Central African Republic
            (ISP-I-13-13A).
         •	 On March 26, 2013, the AIGs participated, along with representatives from
            DOD OIG, USAID OIG and Special Inspector General for Afghanistan
            Reconstruction, in a briefing on the transition between U.S. military and
            civilian leadership in Afghanistan. The briefing was in preparation for the
            Committee’s April 10, 2013 hearing titled, “U.S. Foreign Assistance: What
            Oversight Mechanisms Are in Place to Ensure Accountability?”

     Senate Select Committee on Intelligence
         •	 On February 19, 2013, a briefing was provided by members from the Office
            of Audits to staffers on the Audits and Oversight subcommittee who were
            concerned about Department documents they believe to have been overclas-
            sified. OIG’s review of the Reducing Over-Classification Act (Public Law
            111-258) was discussed.




82   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
Congressional Delegation (CODEL)
    •	 On November 19, 2012, at U.S. Embassy Kabul, Afghanistan, the Deputy
       Assistant Inspector General for MERO, staff from MERO and the Office of
       Investigations, and representatives from the Office of Inspector General for
       the U.S. Agency for International Development briefed U.S. Representatives
       Jason Chaffetz, Mike Coffman, Jeff Duncan, and Erik Paulsen on ongoing
       and planned OIG projects in Afghanistan.



CONGRESSIONAL MANDATES AND REQUESTS
On October 24, 2012, OIG received a request from Representative Bill Posey for
a list of major activities in which OIG was involved, including the total amount of
funding expended carrying out these activities, the number of “activity units” and the
unit cost of each activity. Similar letters were sent to all 73 Federal inspectors general.
In its response, OIG provided a breakdown of expenditures in FY 2012 by office, as
well as those in the Middle East by country.
On November 2, 2012, OIG received a request from Senator Rand Paul to investi-
gate allegations of staff misconduct at the U.S. Consulate General in Naples, Italy. In
its response, OIG noted that the complaints were referred to the appropriate offices
in the Department and that the complainants were provided contact information for
the offices to which the complaints were referred.
As mandated by the Chief Financial Officers Act of 1990 (Public Law 101-576, as
amended), OIG directed and monitored the following financial statement audits:
    •	 Independent Accountant’s Report on the Application of Agreed-Upon Procedures:
       Employee Benefits, Withholdings, Contributions, and Supplemental Semiannual
       Headcount Reporting Submitted to the Office of Personnel Management
       (AUD-FM-13-01)
    •	 Independent Auditor's Report on the U.S. Department of State 2012 and 2011
       Special-Purpose Financial Statements (AUD-FM-13-07)
    •	 Independent Auditor's Report on the U.S. Department of State 2012 and 2011
       Financial Statements (AUD-FM-13-08)
    •	 Management Letter Related to the Audit of the U.S. Department of State 2012
       and 2011 Financial Statements (AUD-FM-13-09)
    •	 Independent Auditor's Report on the International Boundary and Water
       Commission, United States and Mexico, U.S. Section, 2012 Financial
       Statements (AUD-FM-13-10)




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   83
         •	 Management Letter Related to the Audit of the International Boundary and
            Water Commission, United States and Mexico, U.S. Section, 2012 Financial
            Statements (AUD-FM-13-11)
         •	 Independent Auditor's Report on the Broadcasting Board of Governors 2012 and
            2011 Financial Statements (AUD-FM-IB-13-12)
         •	 Management Letter Related to the Audit of the Broadcasting Board of Governors
            2012 and 2011 Financial Statements (AUD-FM-IB-13-13)
     As mandated by the Federal Information Security Management Act of 2002
     (44 U.S.C. § 3545), OIG issued the following reports:
         •	 Audit of International Boundary and Water Commission, United States and
            Mexico, U.S. Section, Information Security Program (AUD-IT-13-15)
         •	 Audit of Department of State Information Security Program (AUD-IT-13-03)
         •	 Audit of the Broadcasting Board of Governors Information Security Program
            (AUD-IT-IB-13-04)
     In compliance with the Improper Payments Elimination and Recovery Act of 2010,
     OIG issued the following reports:
         •	 Audit of Department of State FY 2012 Compliance With Improper Payments
            Requirements (AUD-FM-13-23)
         •	 Audit of Broadcasting Board of Governors FY 2012 Compliance With Improper
            Payments Requirements (AUD-FM-IB-13-24)
     To fulfill its responsibilities under the William Wilberforce Trafficking Victims
     Protection Reauthorization Act of 2008 (Public Law 110-457), OIG submitted a
     summary of activities and findings related to trafficking in persons for the period
     January 1, 2012, to December 31, 2012, to the Committee on Armed Services of the
     Senate, the Committee on Foreign Relations of the Senate, the Committee on Armed
     Services of the House of Representatives, and the Committee on Foreign Affairs of
     the House of Representatives.
     As requested by the House Oversight and Government Reform Committee, OIG
     provided information about the five highest priority, unimplemented recommenda-
     tions made by our office—both short-term and long-term—as well as the manner in
     which the U.S. Department of State and the Broadcasting Board of Governors solicit
     our input to improve efficiency and reduce waste.




84   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
LEGISLATION MONITORED
OIG monitored the following legislation during the reporting period:
    •	 Continuing Appropriations Act, FY 2013 – H.J. Res. 117
    •	 Department of State, Foreign Operations, and Related Programs Appropriations
       Act, 2013, S.3241
    •	 Department of State, Foreign Operations, and Related Programs Appropriations
       Act, 2013, H.R.5857
    •	 Senate Foreign Relations Authorization Act for Fiscal Years 2012-13, Section
       406, S. 1426
    •	 Foreign Relations Authorization Act, Fiscal Year 2013, Section 201, H.R. 6018
    •	 Trafficking Victims Protection Reauthorization Act
    •	 National Defense Authorization Act for FY 2013, S. 3254, Blumenthal
       Amendment on Trafficking in Persons and Section 860, Wartime Contracting
       Reform Act of 2012
    •	 End Trafficking in Government Contracting Act of 2012, H.R. 4259


MEDIA RELATIONS AND OUTREACH
During this semiannual period, OIG made its reports available to the media and
other interested parties both directly and online through regular postings on its
public Web site (http://oig.state.gov). OIG sent out over 50 announcements through
its Twitter account, “tweeting” to a base of more than 1,450 “followers” when new
reports or jobs were posted or when OIG participated in a congressional hearing.
OIG also has more than 6,400 users signed up to receive alerts when new material is
posted.
OIG continues to improve its Web sites, responding to user feedback to enhance
utility and performance. Recent enhancements include providing user-friendly
instructions on submitting Freedom of Information Act requests and reformatting
the homepage. OIG added a new webpage established by the OIG Whistleblower
Protection Ombudsman for the purpose of educating agency employees on whistle-
blower protection in accordance with the Whistleblower Protection Enhancement
Act of 2012.
Internal SharePoint site enhancements included the addition of several new
Innovative Practice (IP) case studies; an additional IP category highlighting “Green
Initiative” achievements; and the posting of OIG’s “Global Inspection Prioritization
Questionnaire,” used to assist inspectors in evaluating the performance of U.S.
missions worldwide.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013   85
     Media expressed interest in a broad range of OIG activities and initiatives, resulting
     in 23 direct responses to 15 different issues.
     Listed in order of interest, the issues that drew the greatest number of media inquiries
     and subsequent reports were the following:
         •	 Inspection of the Broadcasting Board of Governors (ISP-IB-13-07)
         •	 OIG’s response to a congressional request from Senators Lieberman and
            Collins to “conduct a thorough investigation of the Department’s develop-
            ment of security requirements for the Benghazi consulate, as well as the
            resource decision-making process to provide security for this post.”
         •	 Review of Overseas Security Policy Board Exceptions and Secure Embassy
            Construction and Counterterrorism Act of 1999 Waivers (ISP-I-13-06)
         •	 Review of Best-Value Contracting for the Department of State Local Guard
            Program and the Utility of Expanding the Policy Beyond High-Threat Posts in
            Iraq, Afghanistan, and Pakistan (AUD/CG-12-27)
         •	 Evaluation of Local Guard Force Contract for Embassy Islamabad and
            Consulates General Karachi, Lahore, Peshawar (AUD-MERO-12-46)
         •	 Summary of the OIG Report on the Department's Implementation of Mantraps
            (ISP-I-09-29)
     Additional inquiries and media coverage included the status and findings of OIG’s
     “FY 2013 OIG Work Plan”; Inspection of the Bureau of Diplomatic Security, Office
     of Investigations and Counterintelligence, Divisions of Special Investigations, Criminal
     Investigations, and Computer Investigations and Forensics (ISP-I-13-18); Inspection of the
     Bureau of Administration, Global Information Services, Office of Information Programs
     and Services (ISP-I-12-54); Inspection of Embassy Madrid, Spain, and Constituent
     Posts (ISP-I-12-52A); Inspection of Embassy Luxembourg, Luxembourg (ISP-I-11-17A)/
     Compliance Followup Review of Embassy Luxembourg, Luxembourg (ISP-C-13-05);
     Audit of Department of State Information Security Program (AUD-IT-13-03); inquiries
     regarding the contractor suspension and debarment process; and several inquiries
     about possible OIG investigations.
     Foreign Delegations: OIG regularly meets with officials from around the world to
     discuss a range of issues related to government oversight. During this SAR period,
     OIG met with representatives from the Jiangsu Provincial Supervision Department
     (China). Topics of discussion included the following: key responsibilities of OIG;
     OIG’s organizational structure and staffing; report methodology and compliance;
     transparency; and reporting responsibilities to Congress and the Department.




86   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
ABBREVIATIONS

 Abbreviation          Full Name

 AEB                   after-employment benefits
 AQM                   Office of Acquisitions Management
 ASEAN                 Association of Southeast Asian Nations
 BBG                   Broadcasting Board of Governors
 CFC                   Combined Federal Campaign
 CGFS/PSU              Bureau of the Comptroller and Global Financial Services, Post Support Unit
 CME                   Continuing Medical Education
 COR                   contracting officer’s representative
 CSSP                  connections system support program
 DCAA                  Defense Contract Audit Agency
 DCM                   deputy chief of mission
 Department            Department of State
 DOD                   Department of Defense
 DOI                   Department of the Interior
 DS                    Bureau of Diplomatic Security
 EAP                   emergency action plans
 ECA                   Bureau of Educational and Cultural Affairs
 EFM                   eligible family member
 FAR                   Federal Acquisition Regulation
 FISMA                 Federal Information Security Management Act of 2002
 FOIA                  Freedom of Information Act
 FSI                   Foreign Service Institute
 Global Fund           Global Fund to Fight AIDS, Tuberculosis, and Malaria
 HR                    Bureau of Human Resources
 IBB                   International Broadcasting Bureau
 ICASS                 International Cooperative Administrative Support Services
 INV                   Office of Investigations
 IP                    Innovative Practice
 ISN/NDF               Bureau of International Security and Nonproliferation, Nonproliferation and
                       Disarmament Fund
 LE                    locally employed
 MED                   Office of Medical Services




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013    87
      Abbreviation          Full Name

      NATO                  North Atlantic Treaty Organization
      OBO                   Bureau of Overseas Buildings Operations
      OIG                   Office of Inspector General
      ONDCP                 Office of National Drug Control Policy
      OPE                   Office of the Procurement Executive
      OPM                   Office of Personnel Management
      OSPB                  Overseas Security Policy Board
      PEPFAR                President’s Emergency Plan for AIDS Relief
      RFA                   Radio Free Asia
      RIMC                  Regional Information Management Centers
      RSO                   regional security officer
      S/GAC                 Office of the U.S. Global AIDS Coordinator
      SECCA                 Secure Embassy Construction and Counterterrorism Act of 1999
      SIGAR                 Special Inspector General for Afghanistan Reconstruction
      SIGIR                 Special Inspector General for Iraq Reconstruction
      SLS                   School of Language Studies
      TIP                   trafficking in persons
      USAID                 United States Agency for International Development
      USEFP                 United States Educational Foundation in Pakistan
      USIBWC                International Boundary and Water Commission, United States and Mexico,
                            U.S. Section
      USIP                  United States Institute of Peace
      USOECD                U.S. Mission to the Organization for Economic Cooperation and Development
      VOA                   Voice of America
      WCL                   workers’ compensation leave
      WPS                   Worldwide Protective Services




88   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2012 TO MARCH 31, 2013
                   Index of Reporting Requirements
          Inspector General Act of 1978, as amended
Requirement            Subject                                                     Page Number(s)

Section 4(a)(2)        Review of legislation and regulations                             85

Section 5(a)(1)        Summary of Significant problems, abuses, and deficiencies         3-8

Section 5(a)(2)        Significant recommendations for corrective action              45-60, 77

Section 5(a)(3)        Prior significant recommendations unimplemented             45-53, 59-60, 77

Section 5(a)(4)        Matters referred to prosecutive authorities                      33-36

Section 5(a)(5)        Information or assistance refused                                none

Section 5(a)(6)        List of reports issued                                         39-40, 73

Section 5(a)(7)        Summaries of significant reports                              11-32, 67-70

Section 5(a)(8)        Reports – questioned costs                                       41, 75

Section 5(a)(9)        Reports – funds to be put to better use                          42, 76

Section 5(a)(10)       Prior reports unresolved                                     54-56, 57, 77

Section 5(a)(11)       Significant revised management decisions                         56, 77

Section 5(a)(12)       Significant management decisions with which OIG disagreed        none

Section 5(a)(14)       Peer review results                                               63

Section 5(a)(15)(16)   Status of peer review recommendations                             63
    UNITED STATES DEPARTMENT OF STATE
AND THE BROADCASTING BOARD OF GOVERNORS
       OFFICE OF INSPECTOR GENERAL
